<html>
<title> - PASSENGER RAIL REAUTHORIZATION: THE FUTURE OF THE NORTHEAST CORRIDOR</title>
<body><pre>[Senate Hearing 114-111]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-111
 
  PASSENGER RAIL REAUTHORIZATION: THE FUTURE OF THE NORTHEAST CORRIDOR

=======================================================================

                             FIELD HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 4, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                







                           U.S. GOVERNMENT PUBLISHING OFFICE
97-504 PDF                          WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                            
                             
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY AND SECURITY

DEB FISCHER, Nebraska, Chairman      CORY BOOKER, New Jersey, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
ROY BLUNT, Missouri                  CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
JERRY MORAN, Kansas                  RICHARD BLUMENTHAL, Connecticut
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
RON JOHNSON, Wisconsin               EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
STEVE DAINES, Montana




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 4, 2015......................................     1
Statement of Senator Booker......................................     1
    Testimony of Senate President Stephen Sweeney, U.S. Senate 
      Subcommittee on Surface Transportation.....................    47

                               Witnesses

Sarah Feinberg, Acting Administrator, Federal Railroad 
  Administration, U.S. Department of Transportation..............     5
    Prepared statement...........................................     7
Anthony Coscia, Chairman of the Board, Amtrak....................    16
    Prepared statement...........................................    18
James P. Redeker, Chairman, Northeast Corridor Infrastructure and 
  Operations Advisory Commission Commissioner, Connecticut 
  Department of Transportation...................................    20
    Prepared statement...........................................    22
Thomas K. Wright, President, Regional Plan Association...........    25
    Prepared statement...........................................    28
Joseph A. McNamara, Director, New Jersey Laborers'--Employers' 
  Cooperation and Education Trust (NJ LECET).....................    31
    Prepared statement...........................................    32

                                Appendix

Hon. Richard Blumenthal, U.S. Senator from Connecticut, prepared 
  statement......................................................    49


  PASSENGER RAIL REAUTHORIZATION: THE FUTURE OF THE NORTHEAST CORRIDOR

                              ----------                              


                          MONDAY, MAY 4, 2015

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety and Security,   
        Committee on Commerce, Science, and Transportation,
                                                        Newark, NJ.
    The Subcommittee met, pursuant to notice, at 9:30 a.m., at 
1 Newark Center, 17th Floor, North Jersey Transportation 
Planning Authority, Hon. Cory Booker, presiding.

            OPENING STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. I want to call the hearing to order and 
bang the gavel. I'm doing this simply because of an ego need 
that I have being such a new Senator. I still have that new 
Senate smell----
    [Laughter.]
    Senator Booker.--and I'm so far away from being a chairman 
of anything, the fact that I'm touching this gavel right now is 
giving me such an intoxicating feeling of power----
    [Laughter.]
    Senator Booker.--you all have no idea. So if anybody wants 
to take this picture and see the Rocky Mountain high that I 
have right now.
    [Laughter.]
    Senator Booker. Colorado has got nothing on the feeling 
I've got.
    Oh, you're really doing it?
    [Laughter.]
    Senator Booker. All right. So, guys, I just am incredibly 
excited about this hearing. Some people think that that's why 
I'm still single today, because all I want to talk about on my 
dates is infrastructure.
    [Laughter.]
    Senator Booker. But this is actually a really, really 
important, I think vitally important topic that we're hearing. 
I'm very happy that we have a good group here. I'll be 
introducing the witnesses in a second, but I'd like to make 
some opening remarks and thank, first and foremost, NJTPA for 
letting my Subcommittee take over their board room here, which 
is really nice. It's great that they're letting us do this for 
the Commerce Committee.
    I want to thank Chairman Thune, who has become a friend in 
the Senate, for allowing this hearing to take place; and 
obviously Ranking Member Nelson as well.
    The witnesses and everyone here in attendance, I'm grateful 
for you all devoting a significant portion of your morning on 
this great Monday morning as well.
    Today's hearing is going to focus on the importance, as we 
know, of passenger rail, but particularly the Northeast 
Corridor. As many of you know, the funding for passenger rail, 
which includes Amtrak, expired in the 2013 Congress, and we 
have yet to reauthorize any of these programs.
    So my intention, frankly one of my main missions in the 
Senate, is to work in a bipartisan manner to get things done. 
So I've been embroiled in bipartisan efforts to advance the 
passenger rail reauthorization. This hearing is going to inform 
that bill, and I look forward to hearing how the Federal 
Government can assist in the essential efforts going on in the 
Northeast Corridor. Many of the heroes of the Northeast 
Corridor are here today.
    The Northeast Corridor is incredible. The more I dig down 
in this valuable corridor, the more we realize it is an 
indispensable transportation asset and a profound national 
economic driver. It carries 750,000 passengers each day, moves 
a workforce that contributes $50 billion annually to the GDP. 
In fact, one-fifth of America's GDP is produced in the 
Northeast Corridor. And when it comes to the transportation of 
people, it is incredible. Again, the Northeast Corridor 
represents one out of every six people we have in our country.
    So this is a vital corridor. It's estimated that the loss 
of this corridor, one single day actually of a delay, could 
cost the Nation about $100 million in wasted time and lost 
productivity from just sitting in traffic and congestion. It 
would be a nightmare of grand proportions.
    In New Jersey, we know that the Northeast Corridor is our 
lifeblood. We use it to get to work. We use it to get to 
school. We use it to do business. We cannot live and work, 
frankly, without the Northeast Corridor. It's become that 
essential to life in our state. Without it, our roads would, 
frankly, just become parking lots, and people would be left 
with little options unless the gyrocopter really takes off as a 
mode of transportation.
    We've learned this lesson the hard way. We saw when Super 
Storm Sandy came the impact it had on the Northeast Corridor. 
When the storm severely limited service on the Northeast 
Corridor, passengers suffered incredible commutes, taking hours 
to cross the river, with gridlocked traffic and severely 
overcrowded bus and ferry trips. It was, as many people 
remember, a nightmare.
    This is not the situation we ever want to experience again. 
We need to be investing in creating better resiliency. But, 
unfortunately, we're not doing that, and the possibility of 
this happening every day becomes more real with each passing 
day.
    The hundred year-old bridges and tunnels that our rail 
service relies on are engineering marvels from the time of 
Teddy Roosevelt. But now, after inheriting this incredible 
legacy from our grandparents, it's like inheriting the 
beautiful home left to you in a will by your grandparents and 
then trashing it and doing nothing to upkeep it. That's where 
we are when it comes to our infrastructure in the Northeast 
Corridor.
    Now these bridges and tunnels and our rail service are 
incredibly fragile and prone to significant delays, and they're 
unable to keep up with the changing needs of rail service in 
our region. And demand for rail service is incredibly high. 
There were over 260 million people who rode the Northeast 
Corridor in 2009. That figure is estimated to nearly double in 
2040.
    But it's hard to fathom when we have 105-year-old Hudson 
River tunnels, badly damaged by Hurricane Sandy, which must 
either be replaced or shut down sometime over the next decades, 
it's hard to fathom that this is the case, but it is. And 
shutting down those tunnels we all know is a risk we cannot 
afford to take.
    Earlier this year, the Administration recommended that 
Congress provide a dedicated and reliable source of funding, 
plus greatly increase the amount we're spending on rail. That 
is an idea, as we all know, whose time has come. Each year we 
do ensure that approximately $50 billion is dedicated for 
funding for our highways and transit through the Highway Trust 
Fund, and nearly $16 billion is dedicated funding for aviation 
through the Aviation Fund. Meanwhile, passenger rail gets less 
than $1.5 billion and has to fight with a whole host of other 
programs in the appropriations process to maintain that 
funding.
    Now, I'm a guy that began my career going down to 
Washington when I was mayor, every once in a while taking the 
airlines. I don't do that at all. In fact, Amtrak has increased 
its market share well over aviation. Amtrak's share of the air/
rail market, the total number of passengers who either fly or 
take the train between Washington and New York, increased from 
37 percent in 2000 to 77 percent in 2014, following in many 
ways the habits that I changed as well.
    So between New York and Boston, actually the Amtrak share 
increased from 20 percent in 2000 to 57 percent in 2014. The 
funding mechanisms we use do not reflect what actually 
consumers and commuters are actually doing, and that's got to 
change.
    So with large, complex projects, passengers need long-term 
dedicated funding, just like highway and transit projects. It 
is essential in order for us to get this decaying corridor to 
where it should be. And if we're ever going to make a dent in 
the more than $20 billion backlog in projects in the Northeast 
Corridor--and I, frankly, and you all can comment, I think that 
is a low number compared to the backlog and the delayed 
investments we should be making--we desperately need to 
increase our funding and create mechanisms that can serve the 
needs of what we're doing. We just can't allow this most vital 
asset--it is a major artery to the body of our country--we 
cannot allow it to wither and die.
    And we also cannot wait until a crisis. We know what's 
happening with the more unpredictable weather events. We know 
the damage that Sandy has done. We cannot wait until a crisis 
to act, because at that point it will be untenable.
    So right now, the urgency is here for us to do more, and 
that's why I've gone to Washington to work in a bipartisan 
manner, and I'm rolling up my sleeves right now and working 
very hard on this bipartisan bill to address the critical needs 
for passenger rail and target investments to places that we 
really need them. We may not be able to solve all the funding 
problems in this one bill. But, dear God, there are steps that 
we can and must take.
    For example, earlier this year I introduced the Railroad 
Infrastructure Financing Improvement Act, known as RIFIA--it 
sounds like a restaurant here in Newark I used to go to--to 
give rail projects an improved financing option. I'm excited 
because that would be a good step.
    The current rail financing program is fraught with 
limitations and problems, and particularly in its ability to 
fund very complex infrastructure projects like a major bridge 
or a tunnel. The changes I'm recommending will make rail 
financing more accessible and efficient and help to finance 
rail projects.
    It is truly past time that we take action to reverse the 
pattern of Northeast Corridor deterioration. While the 
investments we need to make are substantial, the benefits they 
will bring are incredible, and we can attest to that by our 
experience. The investments we make now will provide dividends 
for our children and our children's children.
    So I look forward to hearing from the witnesses. But as we 
orient ourselves to this challenge, let us let common sense 
prevail for our Nation. I look out on Washington all the time 
about how do we grow our economy and help more people. The time 
that we're talking about middle-class jobs is the time that 
we're talking about creating opportunity and possibility for 
business growth. There are few better investments our taxpayer 
dollars could be in than investing in infrastructure projects. 
Unequivocally, it creates a return on investment, not only a 
return on investment in economic growth, not only a return on 
investment in jobs, but it's also a return on investment in 
quality of life, and nothing can be greater in a purpose of 
government than to expand this kind of opportunity, to make 
these kinds of investments.
    I'm tired of traveling around the globe and watching other 
nations blow by the United States of America when it comes to 
infrastructure. We used to be at the top on planet Earth in 
infrastructure. Now, according to some rankings, we've fallen 
to about number 18. It is sensible enough to understand that 
making an investment here would be incredible in the returns it 
could do for our country and to help us keep up with the 24/7 
global economy where other nations have ports that are faster 
than ours, airports that are superior to ours, rails that are 
faster and more modern.
    The last thing I'll say is that this is the time to invest, 
too. Cost of capital is low. It's a time when we need jobs. 
There is no greater time than now to make these investments.
    All right. With that, I'm going to turn to the witnesses. I 
look forward to hearing from them about these issues and others 
to help enlighten us. I'm excited about the record that we are 
going to create today and the momentum that this hearing could 
create to help us create a bipartisan effort to improve the 
Northeast Corridor.
    So, I want to welcome all the witnesses. If I butcher any 
names, please blame it on my staff. If I get them right, give 
me all credit.
    [Laughter.]
    Senator Booker. But first, I want to introduce the Acting 
Administrator for the Federal Railroad Administration, Ms. 
Sarah Feinberg. Sarah, thank you very much for being here. I 
just wanted to go through everybody's name real quick. But, 
Sarah, we're going to start with you.
    The Honorable Tony Coscia. I knew Tony Coscia before he was 
honorable.
    [Laughter.]
    Senator Booker. Chairman of the Board of the National 
Railroad Passenger Corporation. It's always great to see you. 
You've been a dear friend for a very long time.
    James Redeker, the Commissioner, Connecticut Department of 
Transportation. We'll occasionally allow somebody from 
Connecticut here, but you have roots in Jersey, so I'm claiming 
you.
    Mr. Thomas Wright, the President of the Regional Plan 
Association, a long-time friend, incredibly helpful to me when 
I first became Mayor and helping me understand to get out of my 
narrow view of this region and begin to understand Newark's 
role in the region, truly a visionary person. I'm grateful that 
you're here today.
    And Joe McNamara, another dear friend, long-time friend, 
who is the Director of LIUNA New Jersey, one of our great union 
organizations from Monroe Township right here in New Jersey.
    So, why don't we go to opening statements?
    Ms. Feinberg, please, we'll start with you.

  STATEMENT OF SARAH FEINBERG, ACTING ADMINISTRATOR, FEDERAL 
   RAILROAD ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Feinberg. Thank you so much, Ranking Member Booker. 
Thank you for inviting me to New Jersey, particularly with this 
distinguished panel, to discuss passenger rail, the Northeast 
Corridor, and the Administration's Surface Transportation 
Reauthorization Proposal to GROW AMERICA.
    As Acting Administrator, I have already had the privilege 
of working closely with your staff, and I look forward to 
working closely with you as well.
    In my first few months as Acting Administrator, the FRA has 
responded to five major rail incidents, some involving deaths 
and injuries, and many smaller incidents. Each incident has 
underscored for me FRA's top priority, which is improving 
safety.
    At the FRA, we have a mandate to provide oversight, 
enforcement, and regulations that raise the bar for rail 
safety, and I'm pleased to say that on Friday we did just that. 
The FRA and our sister agency, PHMSA, released a final rule for 
the movement of high-hazard flammable-unit trains, including 
those carrying crude oil and ethanol. This rule, in conjunction 
with Canada's rulemaking, ensures that all tank cars will be 
built to a higher standard, requiring them to have thicker and 
stronger shells, greater thermal protections, and other safety 
features.
    This rule also requires a number of safety improvements for 
rail operations, including the use of enhanced braking systems 
known as ECP brakes. Friday's action, along with nearly 30 
others the Department has taken, are all part of an ongoing 
comprehensive approach to safety that will prevent accidents 
from happening, mitigate the damage when they do occur, and 
support emergency response.
    This rule complements a number of other safety regulations, 
guidance and studies issued in recent years, many as a result 
of this committee's hard work and dedication to improving rail 
safety. More than 6 years ago, this committee led the 
development of two pieces of seminal legislation, the Rail 
Safety Improvement Act of 2008, and the Passenger Rail 
Investment and Improvement Act of 2008. These laws made the 
rail industry safer and laid the groundwork for a high-
performance rail network that is now flourishing.
    Today, there are nearly 150 new passenger rail projects 
either underway, completed, or about to begin as a direct 
result of the PRIIA authorization. These projects are improving 
our rail system in 32 states and the District of Columbia, and 
include important initiatives such as the Portal Bridge Project 
just miles from here.
    Through FRA's High-Speed Intercity Passenger Rail Program, 
we were able to assist New Jersey Transit and Amtrak to 
complete engineering plans needed to begin the critical work on 
the Portal Bridge, a bridge that is so important to the present 
and future of the NEC. All we are waiting for at this point to 
make this project a reality is the next tranche of funding from 
Congress.
    Together with Congress and our stakeholders, we have helped 
to create a solid foundation for rail, but we know there is 
still much to be done. The Department's recent Beyond Traffic 
report identified numerous transportation challenges facing our 
nation, including population growth, a growing infrastructure 
deficit, rising congestion and constrained mobility, greenhouse 
gas emissions, and a rapidly shifting demographic profile, and 
nowhere are these challenges more acute than on the Northeast 
Corridor, the largest and busiest rail corridor in North 
America.
    One out of every six Americans lives here. This corridor is 
home to Amtrak, eight commuter railroads, and four freight 
railroads that operate more than 2,000 trains daily, as 
illustrated on the video. This region's transportation network 
is essential to quality of life and the local economy, and we 
saw stark evidence of that reality during the aftermath of 
Hurricane Sandy in 2012 when the NEC transportation network was 
brought to a virtual standstill.
    Congress recognized these challenges when it created the 
NEC Commission. Since its creation, the Commission has adopted 
a methodology for allocating costs shared among NEC commuter 
rail operators and Amtrak, as well as released the first-ever 
joint 5-year capital plan for the corridor. Complementing these 
efforts, FRA invested heavily in the NEC. Since 2008, we have 
invested nearly $1 billion through the High-Speed Intercity 
Passenger Rail Program into the NEC main line. We've also 
invested an additional $450 million in projects along feeder 
rail lines that provide the region with connectivity and 
increased mobility.
    FRA also initiated the NEC Future program, a comprehensive 
planning effort to define, evaluate, and prioritize future 
passenger rail investments along the NEC. NEC Future is 
expected to be completed in 2016 and will have a lasting legacy 
in guiding the corridor's development.
    The needs along the NEC are great. In order to help meet 
challenges like these, Secretary Foxx transmitted the GROW 
AMERICA Act to Congress on March 30, 2015. It includes $29 
billion to enhance rail safety, maintain current rail services 
and infrastructure, and expand and improve the rail network to 
accommodate growing passenger and freight demand.
    A key feature of the GROW proposal is to provide rail with 
a predictable, dedicated funding stream similar to those 
already in place for highways, transport, and airport programs, 
as you mentioned. The GROW AMERICA proposal will help bring our 
current rail network into a state of good repair and continue 
existing rail services while also enabling us to expand and 
improve America's rail network to accommodate growing travel 
demand.
    Again, the NEC provides the perfect example of how the 
growing state of good repair backlog accumulating across the 
country is affecting our ability to keep up with required 
maintenance, let alone improve our assets for the future. FRA, 
states, Amtrak, commuter railroads, other industry 
stakeholders, and the American people are ready to take the 
next step. You have provided us with a solid foundation for 
growth and progress. I recognize that a comprehensive proposal 
like GROW AMERICA requires navigating across many committees in 
both chambers, but with that said, I thank you for taking a 
close look at passenger rail reauthorization and appreciate the 
opportunity to continue working with you, and I look forward to 
taking your questions.
    [The prepared statement of Ms. Feinberg follows:]

  Prepared Statement of Sarah Feinberg, Acting Administrator, Federal 
       Railroad Administration, U.S. Department of Transportation
    Chairman Fischer, Ranking Member Booker, and Members of the 
Subcommittee, thank you for inviting me to New Jersey to discuss 
passenger rail, the Northeast Corridor (NEC), and the Administration's 
surface transportation reauthorization proposal, GROW AMERICA. \1\ Like 
this Subcommittee, the Federal Railroad Administration (FRA) 
understands the value and importance of the NEC as a national asset.
---------------------------------------------------------------------------
    \1\ The Secretary of Transportation submitted the GROW AMERICA Act 
to Congress on March 30, 2015. ``GROW AMERICA'' stands for ``Generating 
Renewal, Opportunity, and Work with Accelerated Mobility, Efficiency, 
and Rebuilding of Infrastructure and Communities throughout America.''
---------------------------------------------------------------------------
    More than six years ago, this Committee led the development of two 
pieces of legislation that have helped to redefine the role of 
intercity passenger rail in the United States and usher in a new era of 
critical safety reforms--the Passenger Rail Investment and Improvement 
Act of 2008 (PRIIA) and the Rail Safety Improvement Act of 2008 (RSIA). 
Significant progress has been made since implementation of this 
legislation, and the rail industry has changed dramatically. However, a 
significant amount of work remains to further improve the Nation's rail 
network, and as the U.S. Department of Transportation's recent Beyond 
Traffic report identified, there are numerous transportation challenges 
facing our Nation, including:

  <bullet> Population Growth--America's population will grow by 70 
        million by 2045. The majority of this growth will be 
        concentrated in roughly a dozen megaregions. The national 
        transportation system must prepare to meet this increased 
        demand. Increasingly, as evidenced by record ridership numbers, 
        Americans are choosing to travel by passenger rail. In addition 
        to providing mobility and travel choices for this growing 
        population, we must also identify solutions to accommodate 
        resulting freight demand, which is anticipated to increase 45 
        percent during this timeframe.

  <bullet> Infrastructure Deficit--As our population continues to grow, 
        so too does the use of our transportation infrastructure. The 
        funding necessary to maintain and improve our transportation 
        system has not kept pace with this usage and the burdens placed 
        upon it, which has led to a widening infrastructure deficit as 
        more and more transportation assets fall into a state of 
        disrepair. The World Economic Forum ranks the United States 
        16th in overall infrastructure, down from 7th in 1999 and below 
        several western European, Asian, and Middle Eastern countries.

  <bullet> Congestion and Mobility--Highway and aviation congestion 
        continues to rise, with an estimated economic impact growing 
        from $24 billion in 1982 to $121 billion in 2011 in lost time, 
        productivity, and fuel. In many places with the worst 
        congestion, expanding airports and highways is difficult, as 
        land is limited and environmental/community impacts are 
        significant. On average, Americans spend more than 40 hours 
        stuck in traffic each year.

  <bullet> Environmental Protection--Last month, the U.S. Environmental 
        Protection Agency released its 20th Inventory of U.S. 
        Greenhouse Gas Emissions and Sinks, which found that the U.S. 
        emitted 5.9 percent more greenhouse gases in 2013 than it did 
        in 1990, with emissions increasing 2 percent from 2012 to 2013. 
        In addition, 27 percent of all U.S. greenhouse gas emissions 
        are now from the transportation sector. Increased emissions 
        will amplify the existing health threats the Nation faces, 
        which can have substantial impacts on quality of life and the 
        economy.

  <bullet> Changing Demographics--As the U.S. population grows, it is 
        also changing. A large number of Americans are entering their 
        retirement years and are choosing to drive less often, 
        particularly over longer distances. Only 15 percent of 
        Americans older than 65 drive regularly, and that rate declines 
        to just 6 percent for those older than 75. At the same time, 
        younger generations of Americans are choosing to drive both 
        less often and for fewer miles than previous generations, and 
        are obtaining driver's licenses at record low rates. This 
        cohort uses public transportation more frequently than older 
        Americans and has different expectations for the composition of 
        their transportation system.
GROW AMERICA
    In order to help meet these challenges, Secretary of Transportation 
Anthony Foxx transmitted the GROW AMERICA Act to Congress on March 30, 
2015. GROW AMERICA is a six-year, $478 billion multi-modal 
reauthorization proposal intended to comprehensively address our 
surface transportation needs. The proposal includes an integrated 
strategy to enhance rail safety, maintain current rail services and 
infrastructure, and expand and improve the rail network to accommodate 
growing passenger and freight demand.
National High-Performance Rail Network
    GROW AMERICA proposes close to $29 billion over six years to invest 
in a National High-Performance Rail System, which allocates funds to 
two new programs aimed at promoting market-based investments to enhance 
and grow rail:

  <bullet> Current Passenger Rail Service Program--Over six years, GROW 
        AMERICA will provide $14.1 billion to maintain the current rail 
        network in a state of good repair and continue existing 
        services. The proposed Current Passenger Rail Service Program 
        fully funds the National Railroad Passenger Corporation 
        (Amtrak) and for the first time organizes grants for passenger 
        rail services by lines of business:

    <ctr-circle> $4.425 billion to bring Northeast Corridor 
            infrastructure and equipment into a state of good repair, 
            thus enabling future growth and service improvements;

    <ctr-circle> $645 million to replace obsolete equipment on State-
            supported corridors and to facilitate efficient transition 
            to financial control for these corridors to States, as 
            required by Section 209 of PRIIA;

    <ctr-circle> $4.5 billion to continue operations of the Nation's 
            important long distance routes, which provide a vital 
            transportation alternative to both urban and rural 
            communities;

    <ctr-circle> $2.43 billion to improve efficiency of the Nation's 
            ``backbone'' rail facilities, make payments on Amtrak's 
            legacy debt, and implement Positive Train Control (PTC) 
            systems on Amtrak routes; and

    <ctr-circle> $2.1 billion to bring stations into compliance with 
            the Americans with Disabilities Act.

  <bullet> Rail Service Improvement Program--GROW AMERICA also provides 
        an additional $14.4 billion over six years to expand and 
        improve America's rail network to accommodate growing travel 
        demand, which includes:

    <ctr-circle> $9.45 billion to develop high-performance passenger 
            rail networks through construction of new corridors, 
            substantial improvements to existing corridors, and 
            mitigation of passenger train congestion at critical 
            chokepoints;

    <ctr-circle> $3.05 billion to assist commuter rail lines in 
            implementing PTC systems;

    <ctr-circle> $1.5 billion to help mitigate the negative impacts of 
            rail in local communities through rail line relocation, 
            grade crossing enhancements, investments in short line 
            railroad infrastructure, and training and technical 
            assistance to help local governments better coordinate with 
            railroads regarding operational and safety issues; and

    <ctr-circle> $450 million to develop comprehensive plans that will 
            guide future investments in the Nation's rail system and to 
            develop the workforce and technology necessary for 
            advancing America's rail industry.

    In addition to establishing these new grant programs, GROW AMERICA 
proposes a number of improvements to the Railroad Rehabilitation and 
Improvement Financing (RRIF) Program. Specifically, GROW AMERICA 
proposes to allow FRA to subsidize RRIF loan costs in an effort to make 
the program more accessible, particularly to resource-constrained short 
line railroads. With this change, the RRIF Program would be able to 
employ Federal subsidies like the Department's Transportation 
Infrastructure Finance and Innovation Act Program, whereas now RRIF 
relies only on payments from borrowers.
Dedicated and Predictable Funding for Rail
    Congress has for decades funded highway infrastructure and safety, 
transit, and airport programs through multi-year authorizations that 
provide dedicated funding. Rail lacks a comparable stream of Federal 
revenue. As a result, passenger rail capital investments have generally 
failed to keep up with the needs of existing equipment fleet and 
infrastructure, leading to a backlog of state of good repair and other 
basic infrastructure issues on our rail network across the country.
    For the first time, GROW AMERICA would establish a Rail Account 
within the Transportation Trust Fund to provide funding certainty for 
rail. Predictable, dedicated funding will enable States, local 
governments, railroads, and other stakeholders to more effectively plan 
and make large-scale infrastructure investments. A consistent Federal 
funding program, leveraged by State and local support, can also better 
attract private markets to invest in the transformative transportation 
projects needed to move America forward. This approach has been 
affirmed internationally, where major rail systems have been planned 
and developed through a predictable multi-year funding program.
Freight Rail
    America's freight rail network plays a critical role in supporting 
the stability and growth of the U.S. economy. Freight rail is a $70 
billion industry that is relied upon by various sectors across the 
economy. Outside of the NEC--where track and infrastructure is 
predominantly owned by Amtrak, the New York Metropolitan Transportation 
Authority, and the States of Connecticut and Massachusetts--most 
intercity passenger rail services operate over privately-owned freight 
railroads. The GROW AMERICA proposal looks to advance investments and 
policies that create ``win-wins'' that benefit and strengthen both 
passenger and freight rail. This includes authorizing a comprehensive 
evaluation of the operational, institutional, and legal structures that 
would best support high-performance passenger and freight rail services 
that operate over shared-use infrastructure. Reassessing these 
parameters--many of which have been in place for decades--is needed to 
better accommodate growing demand and address the paradigm shift 
proposed in GROW AMERICA of providing predictable, dedicated funding 
for rail.
    GROW AMERICA will also support our freight rail network by 
providing dedicated capital funds for short line railroads through the 
new Local Rail Facilities and Safety Program under the Rail Service 
Improvement Program. Short line railroads often provide the critical 
first-and last-mile connections between shippers and the national main 
line freight rail network. However, many short line railroads lack the 
resources to adequately maintain and improve their infrastructure. FRA 
believes Federal assistance is required to assist short line railroads 
and improve the fluidity of our freight rail network.
Continuous Safety Improvements
    Through RSIA, Congress mandated that PTC be implemented on certain 
railroads and routes by December 31, 2015. FRA believes the 
implementation of PTC is the single most important safety advancement 
being implemented by the rail industry today. Although the railroads 
are working diligently towards implementation of PTC systems, FRA is 
concerned that the vast majority of railroads will not be able to meet 
the deadline.
    In recent months, both Members of Congress and industry 
representatives have expressed significant interest in an alternative 
path forward on PTC implementation in light of the fact that most 
railroads will not be able to comply with the statutory deadline. In 
GROW AMERICA, FRA has proposed that it be given the authority to 
provide limited extensions to permit some latitude in those 
circumstances where unforeseen events delay a railroad's ability to 
fully implement PTC. FRA has also indicated its willingness to employ 
enforcement discretion in those situations where railroads have been 
consistently working towards PTC implementation but will not be able to 
comply with the current deadline.
    In addition to addressing PTC implementation, GROW AMERICA will 
improve the predictability of work schedules for railroad operating 
employees and prevent operator fatigue by granting FRA full rulemaking 
authority to replace outdated hours-of-service laws with 
scientifically-based regulations. GROW AMERICA also promotes uniform 
operating rules for the industry by requiring harmonization of 
railroads' operating rules in small geographic areas where two or more 
railroads host joint operations. This provision could improve safety by 
assisting railroad employees to better understand and comply with 
another host railroad's operating rules, as well as reduce railroads' 
rule training and development cost.
Transparency, Accountability, and Effective Planning
    Achieving the priorities contained in GROW AMERICA can only occur 
if these programs and initiatives are effectively managed and deliver 
public benefits and service improvements through a process that is 
transparent to the American people. The roles and responsibilities of 
the Federal Government, States, Amtrak, freight railroads, and other 
stakeholders must be clear and based on sound public policy. One of the 
principles of the grant programs contained in GROW AMERICA is to 
organize funding for current passenger rail services by business lines 
and invest Amtrak's NEC operating surpluses back into the corridor to 
address NEC infrastructure needs. This structure will improve 
transparency and accountability for taxpayer investments by aligning 
costs, revenues, and Federal grants to business lines to better ensure 
that our investments are advancing the Nation's goals and objectives 
for rail services.
    Similarly, infrastructure investments are most often delivered on 
time, within budget, and achieve their full intended scope when they 
are the result of a rigorous planning process. GROW AMERICA will 
require Amtrak to engage in annual five-year operating and capital 
planning to focus on the long-term needs of its business lines. 
Additional capital asset plans will describe investment priorities and 
implementation strategies and identify specific projects to address the 
backlog of state of good repair needs, recapitalization/ongoing 
maintenance needs, upgrades to support service enhancements, and 
business initiatives with a defined return on investment. GROW AMERICA 
also emphasizes developing rail plans in the context of a broader 
regional framework that can help to better integrate rail projects with 
other transportation modes, promote greater involvement by 
stakeholders, identify priorities for limited Federal funding, and 
yield more cost-effective investments. Establishing a framework for 
improved regional rail planning is a key component of the GROW AMERICA 
proposal.
The Northeast Corridor
    There is no better place to emphasize the need for a multi-year 
reauthorization for rail and what the Administration is trying to 
accomplish with GROW AMERICA than right here in Newark. The NEC is one 
of the most important transportation assets in the United States. The 
lifeblood to the regional economy, the NEC carries more than 750,000 
people each day on Amtrak and commuter services, with Amtrak setting a 
new NEC ridership record in Fiscal Year (FY) 2014 with 11.6 million 
passengers. The residents and commuters that utilize the NEC to travel 
to and from work each day contribute more than $50 billion to the 
national economy each year. The NEC is also one of the most complex 
transportation assets in the country, running through 8 States and 
Washington, D.C. and hosting more than 2,000 daily trains on 8 commuter 
railroads, 4 freight railroads, and Amtrak.
    Despite the important role that the NEC plays in the lives of 
millions of Americans and our economy, many segments of the corridor 
operate at or near capacity and are in need of major repairs. The NEC 
requires nearly $1.5 billion per year over 15 years just to bring the 
corridor into a state of good repair and maintain it in that condition. 
The average age of the NEC's major bridges and tunnels is approximately 
110 years old. These assets have remained in service well beyond their 
expected useful life and today require extensive maintenance and are 
major sources of corridor delays.
NEC Commission
    Congress recognized the opportunities, constraints and challenges 
facing the NEC in the passage of PRIIA by establishing the Northeast 
Corridor Infrastructure and Operations Advisory Commission (NEC 
Commission). Composed of members from each of the NEC States, Amtrak, 
and the U.S. DOT--as well as other non-voting stakeholders--the NEC 
Commission was charged by Congress with developing a cost allocation 
formula for determining and allocating costs, revenues, and 
compensation for users of the NEC.
    The NEC Commission has been successful in promoting mutual 
cooperation among a myriad of stakeholders and public officials with 
differing political persuasions, each having to balance parochial 
interests with the greater good of the corridor. In December 2014, the 
NEC Commission members voted to approve a cost allocation policy. Set 
to take effect in FY 2016, the policy establishes the methodology for 
allocating the approximately $500 million in operating costs and $425 
million in capital costs that are shared among NEC commuter rail 
operators and Amtrak. The capital contributions represent the annual 
funding needed to maintain assets in a state of good repair, if not for 
the backlog of deferred investment needs. The policy also provides 
recommendations for addressing the backlog of state of good repair 
needs and improving collaboration and project delivery along the 
corridor.
    Building on the cost allocation policy, in April 2015 the NEC 
Commission released the first joint five-year capital plan for 
investing in the corridor. The plan integrates the priorities of the 
four infrastructure owners, nine operators, and government agencies 
along the corridor; identifying both funded and unfunded components 
(should additional capital dollars be made available). The plan 
proposes that the Federal Government assume the responsibility for 
funding the elimination of the state of good repair backlog on the NEC, 
which is consistent with the Administration's Current Passenger Rail 
Services Program under GROW AMERICA.
NEC FUTURE and Capital Investments
    In addition to establishing the NEC Commission, PRIIA created new 
discretionary grant programs for rail development and subsequently 
appropriated more than $10 billion for the High-Speed Intercity 
Passenger Rail (HSIPR) Program. FRA utilized a portion of these funds 
to initiate the NEC FUTURE program, a comprehensive planning effort to 
define, evaluate, and prioritize future passenger rail investments 
along the NEC. This FRA-led study will produce the necessary 
environmental and service planning documents for establishing the 
corridor's future vision and enabling further public investment. NEC 
FUTURE is expected to be completed in 2016 and will have a lasting 
legacy in guiding the corridor's development.
    Through the HSIPR Program, FRA has invested nearly $1 billion in 
additional capital and planning funds on the NEC main line between 
Washington, D.C.--New York City--Boston, including:

  <bullet> Amtrak--$450 million: to increase capacity, reliability, and 
        speed along one of the NEC's most heavily used segments (New 
        Brunswick to Trenton, NJ).

  <bullet> New York--$295 million: to reduce congestion and improve on-
        time performance by allowing Amtrak trains to bypass Harold 
        Interlocking in Queens, NY.

  <bullet> Maryland--$60 million: to complete preliminary engineering 
        and environmental work to replace the nearly 150-year-old 
        Baltimore and Potomac tunnel.

  <bullet> New Jersey--$38.5 million: to complete final design to 
        replace the 100-year-old Portal Bridge over the Hackensack 
        River.

  <bullet> New York--$30 million: to complete the first phase of 
        construction for the new Moynihan Station, which will increase 
        capacity and relieve congestion at Penn Station.

  <bullet> Maryland--$22 million: to complete preliminary engineering 
        and environmental work to replace the century-old Susquehanna 
        River Bridge, a source of frequent delays caused by emergency 
        maintenance requirements.

    With the HSIPR Program funding authorized and appropriated by 
Congress, FRA has also funded nearly $450 million in projects located 
on the branch lines that provide critical connections between the NEC 
and the national rail network, including:

  <bullet> Philadelphia to Harrisburg--$66 million: to eliminate grade 
        crossings and upgrade signaling systems to improve safety and 
        service reliability.

  <bullet> New York to Albany--$68 million: to double track the route, 
        improve grade crossings, and complete engineering and 
        environmental analysis to reduce congestion and improve safety.

  <bullet> New Haven to Springfield--$191 million: to upgrade track and 
        install signaling systems in Connecticut to increase speeds and 
        reduce trip times.

  <bullet> D.C. to Richmond--$122 million: to complete track 
        construction and planning and environmental studies to upgrade 
        passenger rail service that connects the Northeast Corridor to 
        Southeast High-Speed Rail to Charlotte, NC.

    Having made these initial investments with HSIPR funding 
appropriated by the American Recovery and Reinvestment Act of 2009 and 
the FY 2010 Consolidated Appropriations Act, the GROW AMERICA Act is 
ready to move forward with additional critical NEC projects as soon as 
Congress approves new funding.
Hurricane Sandy
    In October 2012, Hurricane Sandy caused extensive damage along the 
entire eastern seaboard. Amtrak suffered damage to much of its NEC 
transportation infrastructure, particularly the infrastructure in and 
around New York City and northern New Jersey. Specifically, Hurricane 
Sandy caused significant flooding in and associated damage to Amtrak's 
existing Hudson River tunnels, resulting in the cessation of all Amtrak 
NEC intercity passenger rail and New Jersey Transit service into New 
York City for approximately five days, affecting nearly 600,000 daily 
riders and causing substantial economic harm.
    Hurricane Sandy served as a stark reminder of the importance of the 
NEC to the region and the need for resiliency for our vital 
transportation assets. The NEC Commission estimates that the loss of 
the NEC for a single day costs the U.S. $100 million in travel delays 
and lost productivity.
    In the wake of Hurricane Sandy, Congress enacted the FY 2013 
Disaster Assistance Supplemental Appropriations Bill (P.L. 113-2), 
which provided a wide range of assistance for those affected by the 
storm and flooding. Amtrak received approximately $30 million for 
repairs and $235 million to fund the first two phases of the Hudson 
Yards Encasement Project, the first step in creating new Trans-Hudson 
River rail tunnels to increase capacity and provide redundancy into the 
New York Penn Station/Moynihan complex. Once the new tunnels are 
constructed, the existing century-old tunnels could be closed off in 
order to retrofit them with flood prevention measures and to perform 
other necessary upgrades and repairs, while still maintaining direct 
access to Penn Station.
Conclusion
    Thank you again for inviting me to testify on this very important 
topic. FRA is proud of its accomplishments in implementing PRIIA and 
RSIA, particularly in light of the laws' sweeping provisions and the 
FRA's concurrent need to implement and administer the more than $10 
billion in HSIPR Program funding appropriated by Congress in the 
American Recovery and Reinvestment Act of 2009 and the FY 2010 
Consolidated Appropriations Act. The Administration is encouraged and 
expresses its gratitude that this committee is once again stepping to 
the forefront to develop a new rail reauthorization proposal that will 
help improve and grow our rail network to meet the 21st century 
transportation challenges facing the United States.
    American passengers and shippers are continuing to choose rail more 
than ever before. Over the last decade, Amtrak ridership increased 29 
percent, from 24 million passengers in FY 2005 to 30.9 million 
passengers in FY 2014. On the freight rail side, U.S. rail intermodal 
freight volumes set a new record in 2014 with nearly 13.5 million 
containers and trailers, up 5.2 percent over the previous record 
achieved in 2013. Rail safety--FRA's top priority--has also improved 
dramatically in the last decade, as evidenced by total train accidents 
declining by 46 percent, total derailments declining by 47 percent, and 
total highway-rail grade crossing accidents declining by 24 percent.
    FRA, States, Amtrak, commuter railroads, other industry 
stakeholders, and the American people are ready to take the next step. 
Many of the nearly 150 projects initiated under the HSIPR Program are 
complete or nearing completion. The HSIPR Program and independent State 
and regional efforts have created a strong pipeline of planning, 
environmental, and engineering projects that are now ready for 
construction. This includes the critical Portal Bridge project just a 
few miles from where we are meeting today. Failure to act on these 
shovel-ready projects in a timely manner often results in increased 
costs as environmental analyses and engineering designs have to be 
reevaluated after periods of dormancy.
    FRA strongly supports the proposals contained in GROW AMERICA, and 
I look forward to continuing to work with Congress to enact a 
comprehensive surface transportation bill that provides robust and 
dedicated funding to strengthen rail transportation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



     NEC Future: A Rail Investment Plan for the Northeast Corridor
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 

    Senator Booker. Thank you very much.
    Honorable Coscia.

   STATEMENT OF ANTHONY COSCIA, CHAIRMAN OF THE BOARD, AMTRAK

    Mr. Coscia. Good morning, Mr. Chairman and Ranking Member. 
On behalf of the Board of Directors and management of Amtrak, 
thank you for the opportunity to speak with you today about the 
reauthorization of Amtrak and the future of the Northeast 
Corridor.
    Cleary, by your opening comments, your leadership and 
insight on this issue is clear, and we're very thankful to you 
and to your colleagues for that.
    Amtrak and the Nation's intercity passenger rail system 
have made great strides since the enactment of PRIIA in 2008, 
with Amtrak ridership, revenue, and cost recovery all 
improving, and the Nation reawakening to the value of intercity 
passenger rail. We think the basic structure of PRIIA has 
helped support this improvement and recommend that the focus of 
your new bill be on refining and improving that framework.
    Within this framework, there are a couple of core 
principles that we would ask your committee to consider as you 
prepare the bill to reauthorize PRIIA. First, let me start with 
something you also mentioned, dedicated multi-year funding. 
There is simply no more important issue for Amtrak than 
establishing a way for the Federal Government to reliably and 
adequately fund Amtrak and intercity passenger rail 
investments. This begins by having your bill authorize the 
appropriate levels of capital investment and operating funds 
for Amtrak's lines of business and infrastructure and 
improvement programs. Then it will take the cooperation of your 
Senate colleagues to create a mechanism to actually fund, on a 
predictable basis, these levels.
    Without significantly more capital investment and the 
ability to plan them, maintaining the current network at 
today's performance levels is simply not possible.
    Second, your bill should authorize full funding for 
Amtrak's operating and capital costs for long distance and 
state-supported networks and permit Amtrak to retain its net 
operating revenues from the Northeast Corridor for purposes of 
reinvesting them into the Northeast Corridor infrastructure and 
services. We strongly support our long distance and state-
supported lines, but the Federal Government needs to fully fund 
our costs associated with these networks. We can't continue to 
rely on earnings from the NEC to pay for a national network if 
we want those NEC earnings to continue. Without more 
investment, NEC performance and the revenues with it are surely 
to worsen.
    We clearly need to fully recognize the importance of the 
entire Amtrak integrated system as part of the nation's 
transportation system.
    Third, RRIF, a subject that you clearly have taken 
leadership on. Amtrak has made good use of the FRA's Railroad 
Rehabilitation and Improvement Financing program, and we 
believe the program could do much more if improvements like 
those proposed in your bill, S. 797, were adopted. An enhanced 
RRIF program is essential for major projects like the Gateway 
Program, the BMP tunnel, and the Susquehanna Bridge in 
Maryland, the redevelopment of Washington and Chicago Union 
Stations, and the development of NextGen high speed rail in the 
Northeast Corridor.
    And finally, let me say something about the Northeast 
Corridor Commission and its recommendations. After a number of 
years, the Northeast Corridor Commission has adopted a cost 
allocation policy governing Amtrak and the commuter cost-
sharing for shared-use NEC infrastructure and last December 
came to an agreement for implementation in Fiscal Year 2016.
    In drafting your bill, we urge that you support 
implementation of the policy and adopt the Commission's 
recommendations associated with it, including the creation of a 
new Federal matching program for the NEC and the harmonization 
of Federal requirements. We hope these recommendations are 
things that the Committee will consider, and we think it will 
provide a strong background for the next generation of PRIIA.
    Clearly, there is no better place to illustrate the urgency 
of advancing these recommendations than here in New Jersey, 
home to some of the most critical stretches of passenger 
railroad in America. Leaving Newark for the final run into New 
York City, the Northeast Corridor connects from four tracks to 
a double-track system roughly eight miles in length, including 
two movable bridges and tunnels under the Hudson River. This 
part of the NEC was completed, as I think you mentioned, in 
1910 and has been in continuous use ever since.
    Sized for intercity traffic projected in 1910, it now 
carries that and a whole lot more, including commuter rail 
traffic that was diverted into this infrastructure decades ago 
when the terminals that previously handled it were shut down. 
Today, roughly 450 trains a day use this portion of the line, 
and at peak rush-hour period trains enter the Hudson River 
tunnels every two-and-a-half minutes in each direction, 
carrying some 17 percent of the total rush-hour traffic that 
enters Manhattan from New Jersey.
    This infrastructure is outdated. It lacks reliability and 
capacity, and because the line is so heavily utilized, we can 
only maintain the most critical components under very 
constrained conditions. We can and do take one tube of the 
tunnel out of service for 55 hours every weekend, but we cannot 
take the double-track Portal Bridge, which carries rail traffic 
over the Hackensack River, out of service at all without 
shutting down the entire line, so we actually do the work in 
between trains.
    We've made some progress with improvements to 
infrastructure and improving signaling, but there is little 
else that we can do without taking the tunnel out of service, 
although post-Super Storm Sandy studies of that infrastructure 
make it clear that at some point we will have to take those 
tunnels out of service for rebuilding.
    Fortunately, we've been developing and starting to 
implement a solution to this, our Gateway program. Gateway 
incorporates the extensive capacity and infrastructure 
improvements, including new crossings over the Hackensack 
River, a new tunnel under the Hudson, and greatly expanded 
track, terminal, and station capacity at Penn Station in New 
York. It will provide us with both the expanded capacity our 
region will need for a century of growth, and the physical 
redundancy and reliability we need to safely sustain today's 
services while the existing infrastructure is rebuilt.
    This region is the core of the American economy, and if you 
want to see how dependent the economy is on infrastructure, you 
have come to no better place to determine that, a segment of 
line that carries almost one in five commuters from New Jersey 
at rush hour, and more people between Washington and New York 
than all of the region's airports combined. But it is 
essentially a two-lane highway into New York City that was 
built a century ago. We are heavily dependent on it, but we've 
made no major investments to expand or improve it, in spite of 
growth in traffic, in spite of its age and deterioration, and 
in spite of the growth in demand that organizations like the 
Regional Plan Association are forecasting for the coming 
century.
    We created Gateway to address those issues and have 
involved every stakeholder, and the plan has unanimous support. 
Why? Because its fundamental premise is that the plan is to 
create new track and terminal capacity and to tie that capacity 
into the existing system for maximum flexibility and 
redundancy. Every element of Gateway program is critical, and 
some elements, like the Portal Bridge, are ready to proceed 
immediately.
    Building a new Portal Bridge will be the first critical 
step in improving reliability of this route. While no one 
disagrees, we still do not have the funding that we need to 
sustain a project of this magnitude. We in the Northeast 
Corridor Commission have furnished Congress with the necessary 
funding roadmap, and we have the vision and the plan to make it 
happen. I would ask that you give favorable consideration to 
this proposal and to work with us on fully funding this 
project. Clearly, as has been stated by a number of people on 
this issue, the time to do this is now.
    You made an excellent case in your opening comments about 
how the environment for this type of investment is likely not 
to get any better, and I will conclude by saying that Amtrak, 
which clearly does not enjoy the benefit of an abundance of 
capital, has begun this year to accrue significant amounts of 
its capital in order to meet its obligations toward 
contributing to the Gateway funding program. In our most recent 
budget, we allocated $35 million in capacity which we will 
reserve toward what we expect to be an annual commitment to 
accrue funds that we think are necessary to meet our 
responsibilities, and we're very encouraged by your leadership 
and a number of your colleagues in terms of hearing this call 
and responding to it.
    Thank you.
    [The prepared statement of Mr. Coscia follows:]

  Prepared Statement of Anthony Coscia, Chairman of the Board, Amtrak
    Mr. Chairman and ranking member, members of the Committee, good 
morning. On behalf of the Board of Directors and the management of 
Amtrak, thank you for the opportunity to speak with you today about the 
reauthorization of Amtrak and the future of the Northeast Corridor. 
Amtrak and the Nation's intercity passenger rail system have made great 
strides since the enactment of PRIIA in 2008, with Amtrak ridership, 
revenue, and cost-recovery all improving and the Nation re-awakening to 
the value of intercity passenger rail. We think the basic structure of 
PRIIA has helped support this improvement and recommend that the focus 
of your new bill be on refining and improving this framework. Within 
that framework, here are a few core principles we would ask your 
Committee to consider as you prepare a bill to reauthorize PRIIA;

    Dedicated, multi-year, funding: There is simply no more important 
issue for Amtrak than establishing a way for the Federal Government to 
reliably and adequately fund Amtrak and intercity passenger rail 
investments. This begins by having your bill authorize the appropriate 
levels of capital investment and operating funds for Amtrak's lines of 
business and infrastructure and for grant and improvement programs. 
Then it will take cooperation with your other Senate colleagues to 
create a mechanism to actually fund--on a predictable basis--these 
levels. Without significantly more capital investment and the ability 
to plan ahead, maintaining the current network at today's performance 
levels will simply be impossible.

    National Network Costs and NEC Revenue: Your bill should authorize 
full funding for Amtrak's operating and capital costs of the long 
distance and state-supported networks and permit Amtrak to retain its 
net operating revenues from the NEC for the purpose of reinvesting them 
into our NEC infrastructure and services. While we strongly support our 
long distance and state-supported trains, the Federal Government needs 
to fully fund our costs associated with these networks. We cannot 
continue to rely on earnings from the NEC to pay for the national 
network if we want those NEC earning to continue. Without more 
investment, both NEC performance and revenues are sure to worsen.

    We need to fully recognize the importance of the entire system as a 
fully integrated national transportation system.
    RRIF: Amtrak has made good use of the FRA's Railroad Rehabilitation 
and Improvement Financing program, but we believe the program could do 
much more if improvements like those proposed by Senator Booker in 
S.797 were adopted. An enhanced RRIF program is essential for major 
projects like Gateway Program, the B&P Tunnel, and the Susquehanna 
Bridge in Maryland, the redevelopment of Washington and Chicago Union 
Stations, and the development of NextGen high speed rail in Northeast 
Corridor.
    Cost allocation & NECC Recommendations: After many years, the 
Northeast Corridor Commission adopted last December a cost allocation 
policy governing Amtrak and commuter cost sharing for shared-use NEC 
infrastructure for implementation in FY2016. In drafting your bill, we 
urge that you support implementation of the policy and adopt the 
Commission recommendations associated with it, including the creation 
of a new Federal matching program for the NEC and the harmonization of 
Federal requirements.
    There's no better place to illustrate the urgency of advancing on 
these recommendations than here in New Jersey, home to some of the most 
critical stretches of passenger railroad in America. Leaving Newark, 
for the final run into New York City, the Northeast Corridor necks down 
from four-tracks to a double-track system, roughly eight miles in 
length, including two movable bridges and the tunnels under the Hudson 
River. This part of the NEC was completed in 1910, and has been in 
continuous use ever since. Sized for the intercity traffic projected in 
1910, it now carries that and a whole lot more, including commuter rail 
traffic that was diverted onto this infrastructure decades ago when the 
terminals that previously handled it shut down. Today roughly 450 
trains a day use this portion of the line and at the peak period of 
rush hour, trains enter the Hudson River tunnel every two and one-half 
minutes in each direction, carrying some seventeen percent of the total 
rush hour traffic that enters Manhattan from New Jersey.
    This infrastructure is outdated, lacks reliability and capacity, 
and--because the line is so heavily utilized--we can only maintain the 
most critical components under very constricted conditions. We can and 
do take one tube of the tunnel out of service for 55 hours every 
weekend, but we cannot take the double track Portal Bridge, which 
carries rail traffic over the Hackensack River, out of service at all 
without shutting down the line, so work there goes on between trains. 
We have made some slight improvements to the existing infrastructure to 
improve signaling, but there is little else we can do without taking 
the tunnel out of service--although post-Super Storm Sandy studies of 
the infrastructure have made it clear that in the future we will have 
to take the tunnel out of service for rebuilding.
    Fortunately, we've been developing and starting to implement a 
solution for this--our Gateway Program. Gateway incorporates extensive 
capacity and infrastructure improvements, including new crossings over 
the Hackensack River, a new tunnel under the Hudson, and greatly 
expanded track, terminal, and station capacity at Penn Station in New 
York. It will provide us with both the expanded capacity our region 
will need for a century of growth, and the physical redundancy and 
reliability we will need to safely sustain today's services while the 
existing infrastructure is rebuilt.
    This region is the core of America's economy, and if you want to 
see how dependent that economy is on its infrastructure, you could have 
come to no better spot than this one--a segment of line that carries 
almost one in five commuters into New Jersey at rush hour, and more 
people between Washington and New York than all of the region's 
airports put together. But it is essentially a two-lane highway into 
New York built a century ago. We are heavily dependent upon it, but we 
have made no major investments to expand or improve it--in spite of 
growth in traffic, in spite of its age and deterioration, and in spite 
of the growth in demand that organizations like the Regional Plan 
Association are forecasting for the coming century.
    We created the Gateway Program to address these issues, we involved 
every major stakeholder, and we have a plan which has unanimous 
support. Why? Because the fundamental premises of the plan are to 
create new track and terminal capacity, and to tie that capacity into 
the existing system for maximum flexibility and redundancy. Every 
element of the Gateway Program is critical and some elements like 
Portal Bridge are ready to proceed. Building a new Portal Bridge will 
be a critical first step in improving the reliability of this route. 
While nobody disagrees, we still don't have the funding we need to 
launch a project of this magnitude. We and the Northeast Corridor 
Commission have furnished Congress with the necessary funding roadmap, 
and we have the vision and the plan to make it happen. I would ask you 
to give favorable consideration to this proposal, and to work with us 
to fund and launch this project, because, as I stated in the beginning, 
the time to build it is now.

    Senator Booker. Thank you very much.
    Mr. Redeker?

  STATEMENT OF JAMES P. REDEKER, CHAIRMAN, NORTHEAST CORRIDOR 
INFRASTRUCTURE AND OPERATIONS ADVISORY COMMISSION COMMISSIONER, 
            CONNECTICUT DEPARTMENT OF TRANSPORTATION

    Mr. Redeker. Good morning, Senator, and thank you for the 
welcome back to New Jersey. I'm home again.
    I am Jim Redeker, the Commissioner of the Connecticut 
Department of Transportation, and I'm here today to represent 
the Northeast Corridor Commission.
    I'm pleased to share the Commission's accomplishments, 
which include an unprecedented policy agreement and the first 
five-year capital plan for the entire Northeast Corridor rail 
network, which is in itself an historic moment where we can see 
all the needs of all the users of that corridor. I look forward 
to your support in strengthening the partnership we formed and 
in the upcoming passenger rail reauthorization.
    The Commission is comprised of one member from each of the 
Northeast Corridor states and the District of Columbia, four 
members from Amtrak, and five members from the U.S. Department 
of Transportation. The Commission also includes non-voting 
representatives from freight railroads, neighboring states, and 
commuter authorities.
    As you've said, the Northeast Corridor is one of the great 
railroads of the world. Each day, its 457-mile main line 
between Boston, Massachusetts and Washington, D.C. carries over 
750,000 passengers on 2,000 trains.
    Though the Northeast Corridor continues to post 
historically high ridership levels, this success belies the 
fact that the Northeast Corridor infrastructure is 
deteriorating and reaching the practical limits of its capacity 
to carry additional passengers and move goods and people to 
markets.
    Living off the infrastructure investments from generations 
ago means living with decreasing service reliability. Failures 
create costly delays for passengers across the entire Northeast 
Corridor region. Last year, the circa 1896 Norwalk River Bridge 
in Connecticut failed to close twice in a 10-day period, 
stranding commuters and forcing others to walk across the 
Norwalk River to reach trains that could travel further.
    I'll take a pause to note that last week we celebrated the 
interim repairs to fully re-automate the functioning of that 
bridge, but it is only to sustain it for a few years until we 
can completely replace it.
    The Baltimore and Potomac tunnels were built in 1873 and 
require 30-mile-an-hour speed limits. Super Storm Sandy 
severely worsened conditions in the century-old Hudson River 
and East River tunnels. Eventually, two of the East River tubes 
and each Hudson River tube will require closure for 
rehabilitation for a year or more. And with only a single 
Hudson River tube in service, hourly capacity between New York 
and New Jersey would be reduced from 24 trains to six in each 
direction.
    The list goes on, and the price of inaction gets only 
higher.
    So let me turn to the Northeast Corridor accomplishments.
    PRIIA contained a statutory mandate for the Commission to 
develop a standardized formula to ensure that each intercity 
and commuter service is assigned the costs associated with its 
use of the Corridor. We call this cost allocation, and after 3 
years of tireless effort and negotiations--some would call them 
painful--the Commission adopted a policy this past December 
which will be implemented in Fiscal Year 2016. This agreement 
is no small feat.
    Although cost allocation could have simply been an 
accounting exercise that redistributed existing contributions, 
the Commission instead elected to fully allocate operating 
costs and establish a baseline capital charge for normalized 
replacement of basic infrastructure. This means that for the 
first time, there will be a predictable level of annual 
investment in the Corridor. Remember, the first time.
    This financial commitment is part of a comprehensive 
framework for collaboration addressing capital planning, 
operational performance and project delivery, and increasing 
transparency and accountability. However, funding basic 
infrastructure is not sufficient to bring the Corridor to a 
state of good repair, much less expand capacity and make 
performance improvements to meet expected growth in demand. 
Major projects cannot be completed even with the new sources 
brought by cost allocation. Without significant Federal 
investment in Corridor assets that will provide economic 
returns for the next 100 years, the condition and performance 
of the Northeast Corridor will continue to worsen.
    The economic and mobility risk for the region and the 
nation are unacceptable. I'll bring your attention to this 
chart, which are projects that are ready to go in our five-year 
plan. So as I mentioned, 2 weeks ago the Commission published 
the Northeast Corridor Five-Year Capital Plan, a first-of-its-
kind, region-wide collaborative effort to chart a common course 
to ramp up on much-needed capital investment. The plan accounts 
for Corridor-wide construction capacity and resource 
constraints, and highlights many projects that could have 
shovels in the ground over the next 5 years if additional 
funding were available.
    But this is the chart of funded, in blue, versus unfunded 
capital needs. The bars that are in the light shading represent 
projects ready to go but for predictable funding resources.
    Fully funding the five-year plan will create 42,200 jobs 
per year in engineering, planning, design, manufacturing and 
construction sectors, and an additional 22,700 jobs per year 
across all sectors from increased earnings and spending. 
Importantly, as many as 22 states across the country have 
companies that source materials and manufacture components for 
this rail system.
    The policy recommends that Congress steer its investment in 
the Corridor through the 5-year capital plan by creating a 
Northeast Corridor Federal investment program on terms similar 
to highway and transit projects, which you mentioned in your 
opening remarks. Funding levels should cover 80 percent of the 
cost of investments above the operators' collective basic 
infrastructure contributions for each year of the capital plan, 
and funds should be authorized for multiple years with contract 
authority mechanisms to provide program predictability.
    Moving ahead, the Commission has made great strides, 
uniting in partnership behind a comprehensive policy, financial 
commitment, and capital plan for the Corridor. We ask that 
Congress continue to use the Commission to develop and 
implement policies and programs that strengthen the Corridor.
    In PRIIA, you asked us to find a way forward, and we've 
answered the charge. We've set the cornerstone for the 
Northeast Corridor's future. We need your help to complete the 
entire structure.
    Thank you for the opportunity. I look forward to your 
questions.
    [The prepared statement of Mr. Redeker follows:]

 Prepared Statement of James P. Redeker, Chairman, Northeast Corridor 
    Infrastructure and Operations Advisory Commission Commissioner, 
                Connecticut Department of Transportation
    Good morning Chairman Fischer, Ranking Member Booker, and Members 
of the Committee. I am Jim Redeker, Commissioner of the Connecticut 
Department of Transportation, representing the Northeast Corridor 
Infrastructure and Operations Advisory Commission (the Commission). I 
am pleased to share the Commission's tremendous accomplishments which 
include an unprecedented policy agreement and the first Five-Year 
Capital Plan for the entire Northeast Corridor (NEC or the Corridor) 
rail network to address near and long-term infrastructure needs. 
Congress set high expectations for the Commission in the Passenger Rail 
Investment and Improvement Act of 2008 (PRIIA) and we look forward to 
your support in strengthening the partnership we have formed in the 
upcoming passenger rail reauthorization.
Commission Background
    The Corridor's partners are committed to modernizing the Northeast 
Corridor (NEC) rail network. Because the rail system serves multiple 
states and crosses many jurisdictions, federal, state, and local 
governments in the region and rail service providers must join together 
to successfully develop and implement an effective modernization 
program. The Commission was charged to facilitate collaborative 
planning and unified action.
    In PRIIA, Congress recognized the need to improve coordination on 
the Corridor and directed the Secretary of Transportation to establish 
the Commission to promote mutual cooperation and planning and advise 
Congress on Corridor policy. The Commission is composed of one member 
from each of the NEC states (Massachusetts, Rhode Island, Connecticut, 
New York, New Jersey, Pennsylvania, Delaware, and Maryland) and the 
District of Columbia; four members from Amtrak; and five members from 
the U.S. Department of Transportation (USDOT). The Commission also 
includes non-voting representatives from NEC freight railroads, states 
with feeder corridors that connect to the NEC, and commuter authorities 
not directly represented by a Commission member.
The Northeast Corridor
    The NEC is one of the great railroad corridors of the world. Each 
day, its 457-mile main line between Boston, MA and Washington, D.C. 
carries over 700,000 commuter rail and 40,000 Amtrak passengers on over 
2,000 trains; people who might otherwise use the region's congested 
highways and airports.
    Home to over 50 million people, or one out of every six Americans, 
the NEC Region is an economic powerhouse, generating $1 out of every $5 
in gross domestic product on two percent of the Nation's land area. The 
Corridor provides reliable access to core employment centers that 
contain one out of every three jobs in the NEC Region, where the 
economy measured alone would be the fifth largest in the world, ahead 
of France. A one-day loss of the NEC could cost the nation $100 million 
in additional highway congestion, productivity losses, and other 
transportation impacts.
    Though the NEC continues to post historically high ridership 
levels, this success belies the fact that NEC infrastructure is 
deteriorating and reaching the practical limits of its capacity to 
carry additional passengers and move more goods to market. With the 
region's major airports and highways also at capacity, a robust 
multimodal network is necessary to accommodate future demand and 
connect residents, workers, and businesses across the region.
    Living off the infrastructure investments from generations ago 
means living with decreasing service reliability. Failures create 
costly delays for passengers across the entire NEC Region. Last year, 
the circa 1896 Norwalk River Bridge failed to close twice in a ten-day 
period, stranding commuters and forcing others to walk across the 
Norwalk River to reach trains that could travel no further.
    The Baltimore & Potomac Tunnels were built in 1873 and require 30 
mile-per-hour speed limits. The two-track Portal Bridge in New Jersey 
was constructed in 1910 and creates reliability challenges across the 
NEC due to frequent openings for marine traffic and corresponding 
occasional failures to close properly. Superstorm Sandy flooded and 
severely worsened conditions in the century-old Hudson River and East 
River Tunnels. Eventually, two of the East River tubes and each Hudson 
River tube will require closure for rehabilitation for a year or more. 
With only a single Hudson River tube in service, hourly capacity 
between New York and New Jersey would be reduced from 24 trains to six 
in each direction. This 75 percent service reduction would occur if new 
tunnels are not built to accommodate current service levels. This 
massive capacity reduction already occurs each weekend when Amtrak 
shuts down one tunnel at a time to perform upgrades and maintenance.
    It should also be noted that operating assets over one hundred 
years old is an expensive business. Some components have long ceased to 
be manufactured by the private sector and spare parts must be custom 
ordered or patched together by resourceful engineers. Assets such as 
large moveable bridges routinely require dozens of workers to complete 
tasks where a modern replacement would be operated remotely at the 
touch of a button.
    The list goes on and the price of inaction is only getting higher.
Corridor Governance
    The current NEC ownership, operational, and governance structure 
poses significant challenges to efficiently operating, planning for, 
and funding the NEC's needs. Comprehensive planning and investment has 
always been difficult for a system that spans eight states and the 
District of Columbia, supports nine passenger rail operators--including 
four of the five largest commuter rail services in North America--
serves four freight railroads, and has four separate infrastructure 
owners.
    Infrastructure investments involve complex planning, engineering, 
contracting, and construction activities that take place over a number 
of years--processes that benefit from predictable and stable capital 
funding resources which is generally lacking due to the current 
reliance on annual budgeting and appropriations and one-time 
competitive grants.
    Further, under Federal law, commuter and intercity passenger rail 
services are treated differently due to their differing markets, 
economics, and service characteristics. Commuter rail service is 
considered ``public transit'' while intercity rail service is not. As a 
result, even though both services operate over the same Northeast 
Corridor tracks, often stopping at the same stations, they are 
regulated, overseen, and funded differently by the Federal Government. 
Apart from safety, Federal policy is not designed to support the NEC as 
a system which hinders our ability to improve service coordination and 
plan, fund, and deliver projects.
Cost Allocation
    PRIIA contained a statutory mandate for the Commission to develop a 
standardized formula to ensure each intercity and commuter service is 
assigned the costs associated with its sole-benefit use of the NEC and 
a proportional share of costs resulting from joint-benefit use. We call 
this ``cost allocation'' and after three years of tireless effort and 
frequent, painful negotiations, the Commission resoundingly adopted a 
``Northeast Corridor Commuter and Intercity Rail Cost Allocation 
Policy'' (the Policy) this past December to be implemented in FY2016. A 
living document, the Policy is expected to be amended over time as we 
learn lessons from the implementation process. It is worth noting that 
the first time Congress sought resolution for the ``Northeast Corridor 
Cost Dispute'' was in the Northeast Rail Service Act of 1981, 
introduced exactly 34 years ago today. This agreement is no small feat.
    Although cost allocation could have simply been an accounting 
exercise that only redistributed existing contributions, such treatment 
would have been akin to rearranging the deck chairs on the Titanic. The 
Commission instead elected to share fully allocated operating costs and 
establish a baseline capital charge for normalized replacement of basic 
infrastructure. This means that--for the first time--there will be a 
predictable level of annual investment in the Corridor.
    This financial commitment is part of a comprehensive framework for 
collaboration addressing capital planning, operational performance and 
project delivery, with an emphasis on increasing transparency and 
accountability. Further, the Policy sets forth recommendations for 
Federal policy changes and new financial commitments from all Corridor 
investors, including the Federal Government.
    However, this collaborative investment strategy will only be 
successful in increasing investment in NEC infrastructure if the 
Federal Government, and specifically Congress, can join us as partners. 
Funding basic infrastructure is not sufficient to bring the Corridor to 
a state-of-good-repair, much less expand capacity and make performance 
improvements to meet expected growth in demand. Major projects such as 
the Portal Bridge and the B&P Tunnels cannot be completed even with the 
new resources brought by cost allocation. Without significant and 
sustained Federal investment in Corridor assets that will provide 
economic returns for the next hundred years, the condition and 
performance of the NEC will continue to worsen. The economic and 
mobility risks for the region and the Nation are unacceptable.
The Five-Year Plan
    Two weeks ago, the Commission published the Northeast Corridor 
Five-Year Capital Plan: Fiscal Years FY 2016-FY 2020 (the Five-Year 
Plan), a first-of-its-kind, region-wide collaborative effort to chart a 
common course to ramp up capital investment if additional funding were 
available. This is a key deliverable required by the Policy and shapes 
the new paradigm for federal, state, Amtrak, and transit agency 
partnership. Again, to offer historical context, this is the first time 
there has been a network-wide capital plan for the NEC since it entered 
public ownership in the 1970s.
    The Five-Year Plan covers the full range of capital investment, 
from the routine renewal of basic infrastructure like track and power 
lines, to advancing major reconstruction projects. The Five-Year Plan 
would ramp up investment levels to account for corridor-wide 
construction capacity and resource constraints. It specifically 
highlights the many projects that could have shovels in the ground over 
the next five years if additional funding were available.
    Fully funding the Five-Year Plan will create 42,200 jobs per year 
in the engineering, planning, design, manufacturing, and construction 
sectors and an additional 22,700 jobs per year across all sectors from 
increased earnings and spending. Infrastructure owners work with 
material suppliers across the country to procure the raw steel, wood, 
concrete, and granite that become the Corridor's rails, ties, and 
ballast. Companies that manufacture power and signal system components 
are located nationwide. The Commission estimates as many as 22 states 
from North Dakota to South Carolina have companies that source 
materials and manufacture components for the rail system.
Long Term Planning
    The Federal Railroad Administration (FRA) is leading a 
comprehensive long-term planning initiative for the Corridor, called 
NEC FUTURE. Through the NEC FUTURE program, the FRA will determine a 
long-term vision and investment program for the NEC, and provide a Tier 
1 Environmental Impact Statement (EIS) and Service Development Plan 
(SDP) in 2016 in support of that vision.
    The Commission is working closely with the FRA to shape the 
framework for the future investments needed to improve passenger rail 
capacity and service through 2040. Once NEC FUTURE is completed, each 
successive Five-Year Plan will incrementally move the region closer to 
achieving this vision.
Federal Funding and Policy
    I highlighted earlier that Federal treatment of the NEC must change 
in order to ensure that together, we can put the Corridor on a 
sustainable path for the future.
    The Policy recommends that Congress steer its investment in the 
Corridor through the Five-Year Capital Plan through an NEC Federal 
Investment Program on terms similar to highway and transit projects. 
Competitive grants to individual projects may be appropriate for other 
rail corridors, but the NEC's complexity means only a unified 
investment program will ensure resources are deployed in a logical 
manner. Therefore, we believe this program should adhere to the 
following principles:

  <bullet> Funding levels should cover 80 percent of the cost of the 
        investments above the operators' collective basic 
        infrastructure contributions for each year of the capital plan.

  <bullet> Federal funds should be authorized for multiple years with 
        contract authority mechanisms to provide program 
        predictability.

  <bullet> These funds should be directed to eligible NEC recipients 
        identified in the capital plan.

  <bullet> The operating surplus generated by Amtrak's NEC services 
        should be available for Amtrak's reinvestment into the NEC 
        network. At the same time, Federal funds should also be made 
        available to Amtrak to continue to operate and invest in the 
        national passenger rail network.

    The Policy also seeks legislative and administrative changes to 
harmonize Federal requirements. The different treatment of intercity 
and commuter rail means that there is no single set of rules or point 
of contact at the Federal level when NEC projects involving multiple 
participants are proposed under today's funding programs. Action to 
reconcile conflicting requirements that come with using Federal dollars 
from different Federal programs will deliver projects more quickly and 
save money.
Moving Ahead
    The upcoming reauthorizations of both surface and passenger rail 
laws offer Congress a gamechanging opportunity to ensure the Northeast 
Corridor will continue to be the economic catalyst it is today.
    The Commission has made great strides, uniting in partnership 
behind a comprehensive policy, financial commitment, and capital plan 
for the Corridor. We ask that Congress continue to use the Commission 
to develop and implement policies and programs that strengthen the 
Corridor. But we cannot be successful without a stronger Federal 
partner. In PRIIA, you asked us to find a way forward and we've 
answered the charge. We have set the cornerstone for the Northeast 
Corridor's future. We need your help to complete the entire structure.
    Thank you for the opportunity to testify today.

    Senator Booker. Thank you very much.
    Mr. Wright?

           STATEMENT OF THOMAS K. WRIGHT, PRESIDENT, 
                   REGIONAL PLAN ASSOCIATION

    Mr. Wright. Thank you, Ranking Member Booker. It's a great 
opportunity and pleasure to be here with you, and an 
opportunity to testify on this important issue.
    I'm Tom Wright, President of the Regional Plan Association.
    The Northeast Corridor is the busiest rail line in America 
and perhaps the most complex rail corridor in the world, and 
you have a tough job ahead of you. We are eager to work with 
you as you work to reauthorize our Federal rail programs and 
tackle the enormous challenges we face in the Corridor, 
including, as others have mentioned, its worst bottleneck, the 
two-track stretch between Newark and New York City, the aging 
bridges, and the infamous tunnels under the Hudson River.
    Each weekday, the Hudson River tunnels carry more than 
170,000 rail passengers in and out of Manhattan. That's triple 
the number since 1990. And RPA's projections show that if we 
have the capacity, demand will continue to grow in the coming 
decades. However, the tunnels are old and deteriorating and 
unable to handle current, let alone future, demand.
    In October 2012, Superstorm Sandy flooded the tunnels for 
the first time in their long history. The water was quickly 
pumped out but left behind a coating that is eating away at 
their reinforcing steel and concrete. For years, one of the 
tubes has been closed overnight and on weekdays and during 
weekends for maintenance, but these stopgap repairs are no 
longer enough, and the tunnel is threatened by a shutdown if 
conditions worsen.
    As previous speakers have said, each of the tubes will need 
to be closed for up to a year or more at a time for extensive 
repairs, and Amtrak says this work must commence in the next 15 
to 20 years, leaving precious little time to build two new 
tunnels. If these new tunnels are not in place, the tunnel 
closures will reduce train traffic by an estimated 75 percent 
in the peak hour, stranding over 50,000 people every day to 
find alternative means of travel in and out of Manhattan. Huge 
disruptions would follow for all who travel across the Hudson 
River, whatever their mode. Most likely, many of them would no 
longer be able to make the journey.
    Compounding this problem, RPA expects the huge increases in 
regional rail travel we have experienced over the last 20 years 
to continue. We are projecting up to 100 percent increase in 
train travel through Penn Station, and a 50 percent increase in 
travel to the Port Authority bus terminal, which is also unable 
to handle future demand. Without the ability to accommodate 
this growth, the economies of both states, and indeed the 
entire nation, will suffer.
    Fixing this bottleneck is about far more than simply 
avoiding disaster. It's about giving the Nation's largest 
metropolitan economy a chance to grow and keep pace with 
Shanghai, London, Paris, and other world cities that are 
investing, as you've mentioned, far more in their transit 
infrastructure. We anticipate that New York and this tri-state 
region has the opportunity to add 2 million new jobs over the 
next 25 years, giving more people a chance for getting ahead 
and supporting more of the services that people want and need.
    But those projections are already constrained by our lack 
of infrastructure and housing in this region. In fact, if we 
simply did a straight-line analysis of our share of industries 
and how much industries are projected to grow in this nation 
over 25 years, that 2 million jobs would be closer to 4 
million.
    But just getting that 2 million will require that we have 
the infrastructure in place to handle that capacity, and it's 
not clear that we will. This will only happen if we make the 
right investments, and we think no investments are more 
important than the ones that increase trans-Hudson capacity.
    Many possible solutions have been suggested, and the most 
obvious option is the Gateway Program being proposed by Amtrak, 
which would build two new tunnels and several bridges, expand 
Penn Station, and add two new tracks between Newark and New 
York, doubling the trans-Hudson rail capacity. But this is 
going to be a massive effort, bigger than anything Amtrak has 
ever built or attempted to build. Cost estimates are now 
inching closer and closer to $20 billion. But the need is 
enormous, and the investment must be made.
    I'm sorry to say that at RPA's annual conference just a 
week-and-a-half ago, I conducted a poll, an instant poll of the 
several hundred leaders in the transportation community in this 
region, and I asked them a simple question: What do you think 
is more likely to happen first, that we build a new tunnel 
under the Hudson River, or that one of the existing tunnels is 
shut down for an extended period of time? Eighty-five percent 
of the respondents answered B. Think about that. Over four in 
five of the people paying most attention to this issue believe 
that an imminent disaster is more likely to happen before we 
are able to get that new tunnel in place.
    This Thursday, working with our partners, including Amtrak, 
the MTA, New Jersey Transit, and the Port Authority, RPA is 
convening a summit of regional leaders in the transportation 
community to discuss the state of infrastructure linking New 
York and New Jersey, plans and proposals to increase trans-
Hudson capacity, and the financial and regulatory hurdles to be 
faced in making these plans a reality, and the Gateway Program 
will certainly be an emphasis of these discussions. We all know 
it must get done; the question is how.
    RPA strongly supports enough Federal funding in the next 
rail bill to put the Corridor on track to eliminate the backlog 
of deferred maintenance, currently more than $20 billion, as 
has been mentioned, and also to fully fund Amtrak's normal 
capital program so that it has the resources to keep the 
Corridor in safe working order. Gateway is the largest 
component of this improvement program, and this will be 
necessary but still insufficient to meet the growing economic 
and mobility needs of the Northeast.
    According to the Northeast Corridor Commission, the 
historic level of funding for the NEC's capital program is 
about $400 million a year. It would take about $4 billion a 
year to completely eliminate the backlog of work and make basic 
improvements within the next 15 years.
    So to achieve our shorter-term goals and build a foundation 
for achieving our long-term vision, we believe three things are 
missing and sorely needed:

Strong leadership from the President and Congress. Most of the 
Northeast Corridor is a Federal asset, and it is the 
responsibility of the Federal Government to return it to a 
state of good repair. This will also create incentives for the 
states and private sector to contribute more to the long-term 
improvement of the Northeast Corridor.

A new infrastructure authority with the capabilities to plan 
and prioritize projects, and attract and receive the maximum 
level of private-sector investment to improve the NEC.

And finally, a new funding approach and financing that includes 
new, reliable, stable sources of dedicated revenues to finance 
these projects.

    To secure the necessary political and financial support 
from state and municipal governments, as well as the private 
sector, it's going to be essential to create a new governing 
structure for project selection, maintenance and financing in 
this Corridor. This structure could build upon the recent 
successes in governance, planning, and project delivery already 
demonstrating their benefits. These successes include the 
creation of the NEC Commission, FRA's undertaking of the NEC 
Future, which is a long-range master plan of the Corridor, and 
Amtrak's strategic plan that creates new divisions for the 
Northeast Corridor infrastructure development and rail 
operations.
    This vision can only be achieved through a partnership 
between the Federal Government, Amtrak, and state and municipal 
governments, as well as the private sector. Robust Federal 
funding and changes in various Federal financing programs are 
going to be required to incentivize the state, local, and 
private contributions for the Corridor's capital projects which 
will nurture this partnership over time.
    So, in closing, RPA recommends that the Federal rail bill 
create a new program, a new grant program authorized to award 
$10 billion to the NEC improvements project in addition to 
Amtrak's normal capital funding. These grants could be used to 
pay for project planning, engineering, design, construction, 
procurement, or financing costs. Federal loans from the 
Railroad Rehabilitation and Improvement Financing, RRIF, 
program could be used to finance much of the rest of the budget 
for this improvement program and repaid using existing or new 
revenue streams. User fees and value capture mechanisms should 
also be considered and used to help finance the debt service on 
the RRIF loans.
    This Commission and Congress and all of the other members 
of this esteemed panel have the ability to begin transforming 
the Northeast Corridor into the world-class corridor that it 
must become if the Northeast is going to remain an engine of 
the national economy and a strong competitor in global markets.
    Thank you for the opportunity.
    [The prepared statement of Mr. Wright follows:]

          Prepared Statement of Thomas K. Wright, President, 
                       Regional Plan Association
    Chairman Fischer, Ranking Member Booker, and Members of the 
Committee:

    Good morning. I'm Tom Wright, President of Regional Plan 
Association. Thank you for giving me the opportunity to speak on the 
important subjects of passenger rail reauthorization, and the need to 
improve and modernize the Northeast Corridor.
    The NEC is the busiest rail line in America and perhaps the most 
complex rail corridor in the world. You have a tough job ahead of you 
and we are eager to work with you as you work to reauthorize our 
Federal rail programs and tackle the enormous challenges we face on the 
corridor, including its worst bottleneck--the two-track stretch between 
Newark and New York City, its aging bridges, and the infamous tunnels 
under the Hudson River.
    RPA is partnering with leading business and civic groups throughout 
the Northeast to promote investment in the NEC because of the essential 
role it plays in the regional economy, as a vital link for millions of 
residents, workers and visitors.
    RPA strongly supports a robust improvement program to fix and 
upgrade the Northeast Corridor. The economies of the New York region, 
the Northeast--and indeed the nation--depend on the Federal and state 
governments and private sector working in tandem to address the 
immediate and urgent challenge of rebuilding, maintaining and expanding 
the Northeast Corridor's aging infrastructure.
    Each weekday the Hudson River tunnels carry more than 170,000 rail 
passengers in and out of Manhattan--tripled since 1990--and RPA's 
projections show that if we have the capacity, demand will continue to 
grow in the coming decades. However, the tunnels are old and 
deteriorating, and unable to handle current, let alone future demand.
    These crucial assets that carry the lifeblood of New York's 
regional economy are at risk. The rail tunnels under the Hudson River 
opened in 1910 and more than 100 years of daily abuse have taken a toll 
on the tunnels' infrastructure. First, many of you may not know that 
the weight of the river fluctuates with the tides and as a result the 
tunnels compress and expand slightly with every change of the tide, 
twice daily.
    In October 2012, Superstorm Sandy flooded the tunnels for the first 
time in their long history. The water was quickly pumped out, but left 
behind a coating that is eating away at their reinforcing steel and 
concrete. For years, one of the tubes has been closed overnight on 
weekdays and during weekends for maintenance, but these stopgap repairs 
are no longer enough and the tunnel is threatened by a shutdown if 
conditions worsen.
    As previous speakers have said, each of the tubes will need to be 
closed for up to a year or more at a time for extensive repairs and 
Amtrak says this work must commence in the next 15-20 years, leaving 
precious little time to build two new tunnels. If these new tunnels are 
not in place, the tunnel closures will reduce train traffic by an 
estimated 75 percent in the peak hour, forcing over 50,000 people a day 
to find alternatives means of travel in and out of Manhattan. Huge 
disruptions would follow for all who travel across the Hudson, whether 
by train, bus, ferry or car. Most likely, many of them would no longer 
be able to make the journey.
    Compounding this problem, RPA expects the huge increases in 
regional rail travel we have experience over the last 20 years to 
continue. We are projecting up to 100 percent increase in travel 
through Penn Station, and a 50 percent increase in travel to the Port 
Authority Bus Terminal, which will also be unable to handle future 
demand. Without the ability to accommodate this growth, the economies 
of both states will suffer.
    Fixing this bottleneck is about far more than simply avoiding 
disaster. It's about giving the Nation's largest metropolitan economies 
a chance to grow and keep pace with Shanghai, London, Paris and other 
world cities that are investing far more in their transit 
infrastructure. We have a chance to add 2 million jobs to the New York 
region's economy over the next 25 years, giving more people a chance 
for getting ahead, and supporting more of the services that people want 
and need, from high quality schools to reliable public transportation.
    But this will only happen if we make the right investments, and no 
investments are more important than ones to increase Trans-Hudson 
capacity.
    Many possible solutions have been suggested. The most obvious 
option is the Gateway program proposed by Amtrak, which would build two 
new tunnels and several bridges, expand Penn Station, and add two new 
tracks between Newark and New York, doubling trans-Hudson rail 
capacity.
    This will be a massive effort--bigger than anything Amtrak has ever 
built or attempted to build. Cost estimates are inching close to $20 
billion. But the need is enormous, and the investment must be made.
    At RPA's annual conference last month, I conducted a poll of the 
audience of several hundred leaders in New York's business and civic 
community. I asked the audience,
    What is more likely to happen first?

        (A) A new tunnel under the Hudson River is built, or
        (B) One of the existing tunnels is shut down for an extended 
        period of time.

    85 percent of the respondents selected B.
    Think about that--more than 4 out of 5 of the people paying closest 
attention to this issue think we will fail to prevent a disaster--when 
we already know about the dangers.
    This Thursday, working with our partners--Amtrak, MTA, NJ Transit 
and the Port Authority--RPA is convening a summit of regional leaders 
in the transportation community to discuss the state of the 
infrastructure linking New York and New Jersey, plans and proposals to 
increase trans-Hudson capacity, and the financial and regulatory 
hurdles to be faced in making these plans a reality. The Gateway 
Program certainly will be the emphasis of these discussions.
    We all know it must get done. The question is how to get it done.
    RPA's strongly supports enough Federal funding in the next rail 
bill to put the corridor on track to eliminate the backlog of deferred 
maintenance--currently more than $20 billion--and fully fund Amtrak's 
normal capital program, so it has the resources to keep the corridor in 
safe, working order. Gateway is the largest component of this 
improvement program. This will be necessary, but still insufficient to 
meet the growing economic and mobility needs of the Northeast.
    According to the NEC Commission, the historic level of funding for 
the NEC's capital program is $400 million a year. It would take $4 
billion a year to completely eliminate the backlog of work and make 
basic improvements within 15 years.
    To achieve our shorter-term goals and build a foundation for 
achieving our long-term vision, we believe three main things are 
missing and sorely needed:

  <bullet> Strong leadership from the president and Congress--most of 
        the NEC is a Federal asset and it is the responsibility of the 
        Federal Government to return it to a state of good repair. This 
        will also create incentives for the states and private sector 
        to contribute more to the long-term improvement of the NEC,

  <bullet> A new infrastructure authority with the capabilities to plan 
        and prioritize projects, and attract and receive the maximum 
        level of private sector investment to improve the NEC, and

  <bullet> A new approach to funding and financing that includes new 
        reliable sources of revenue dedicated to the finance critical 
        NEC projects.

    To secure the necessary political and financial support from state 
and municipal governments, as well as the private sector, it will be 
essential to create a new governance structure for project selection, 
management and finance in the corridor. This structure could build upon 
the recent successes in governance, planning and project delivery 
already demonstrating their benefits in the corridor.
    These successes include the creation of the NEC Commission, FRA's 
undertaking of NEC Future, a long-range master plan of the corridor, 
and Amtrak's Strategic Plan that created new divisions for Northeast 
Corridor infrastructure development and rail operations.
    This vision can only be achieved through a partnership between the 
Federal Government, Amtrak, and state and municipal governments, as 
well as the private sector. Robust Federal funding and changes in 
various Federal financing programs are required to incentivize state, 
local and private contributions to the corridor's capital projects, 
which will nurture this partnership over time.
    RPA recommends that the next Federal rail bill create a grant 
program authorized to award $10 billion to NEC improvement projects, in 
addition to Amtrak's normal capital funding. These grants could be used 
to pay project planning, engineering, design, construction, procurement 
or financing costs. Federal loans from the Railroad Rehabilitation & 
Improvement Financing (RRIF) program could be used to finance much of 
the rest of the budget for this improvement program, and repaid using 
existing or new revenue streams. User fees and value capture mechanisms 
also could be used to help finance the debt service on RRIF loans.
    This Committee and Congress, and all of the other members of this 
esteemed panel have the ability to begin transforming the NEC into the 
world-class corridor it must become if the Northeast is going to remain 
an engine of the national economy and a strong competitor in global 
markets.
    The proposals I have laid out would build on significant progress 
already made by Amtrak, the NEC Commission, Federal Railroad 
Administration and the states in returning the corridor to a state of 
good repair and creating a long-range master plan for the corridor. The 
next Federal rail bill should authorize key investments required to 
eliminate the NEC's worst bottlenecks, create new capacity and 
reliability, and build a foundation for high-speed rail in the future.
    I urge you to make these policies and investments for the NEC a 
keystone of the upcoming rail reauthorization bill.
    Thank you.

    Senator Booker. Thank you very much.
    Eighty-five percent of those polled predict disaster. That 
sounds like my first poll when I was entering politics.
    [Laughter.]
    Mr. Wright. Shocking.
    Senator Booker. Yes. You were far less depressing when I 
was Mayor.
    [Laughter.]
    Mr. Wright. That says something.
    Senator Booker. Thank you, Mr. Wright.
    Mr. McNamara, will you bring us home?

           STATEMENT OF JOSEPH A. McNAMARA, DIRECTOR,

          NEW JERSEY LABORERS'--EMPLOYERS' COOPERATION

                 AND EDUCATION TRUST (NJ LECET)

    Mr. McNamara. Thank you, Senator.
    My name is Joe McNamara. I'm Director of the Laborers-
Employers Cooperation and Education Trust. As the Senator 
pointed out, that's the labor-management fund that's affiliated 
with the Laborers International Union of North America. Our 
role, LECET, is to promote and effectuate policies that 
stimulate economic growth. A strong economy is good for the 
construction industry, which I represent.
    Today, I'm representing Ray Pacino. Ray is an international 
Vice President of the Laborers International. His region, the 
Northeast Region, is New York, New Jersey and Delaware, which 
embodies the Northeast Corridor region. We have 40,000 members 
who build the infrastructure, as well as schools and office 
buildings. So obviously, a good economy, a strong economy is 
good for construction jobs.
    You've heard from the experts--I'm not--on the critical 
importance and the enormous needs of our rail transportation 
system. I've submitted some testimony. Not to be redundant, let 
me highlight some key points and perhaps give a little broader 
perspective to rail infrastructure and how it fits into the 
rest of the system.
    As has been said, we're all aware that transportation 
infrastructure is the foundation of our economy, more so than 
any other region of the country. Yes, we depend on it. We live 
in the world's largest consumer market. There are 50 million 
people who are considered to be the economic capital of the 
world. Why are we? We are because of our intermodal 
transportation system, our roads, bridges, highways, transit, 
both rail and freight. So it's critical that we maintain these 
systems and make sure that they are working efficiently. If 
not, we're not going to be able to maintain our position in the 
world as an economic capital.
    I sit on the Board of the Economic Development Authority 
and, no question, the incentives, the tax incentives that have 
been put in place over the last few years have been very, very 
successful in attracting and retaining businesses in New 
Jersey. But I can tell you, while they are extremely useful, 
part of the decisionmaking process of the businesses in this 
region whether to come or go is the efficiency of the 
transportation network.
    In New Jersey and in Washington, obviously, we're dealing 
with trying to find funding for the highway bill, and in New 
Jersey for our trust fund. It's not an accident that some of 
the key people in our coalition in New Jersey, Forward New 
Jersey, like the Chairman, is Tom Bracken, head of the New 
Jersey Chamber, the Association of Office Parks, civic 
organizations, all have united because we need to find 
solutions to transportation funding both at the Federal and the 
state level.
    Again, our systems are aging, as the panelists have pointed 
out, and we need substantial capital investment. Now again, the 
leaders in both Washington and Trenton understand this, but 
they can't come up with a solution to do it, whether it's a 
political or a financial solution.
    Perhaps we need to change how we look at investment in 
infrastructure. Yes, I hear, both at the Federal and state 
level, some leaders might say gee, we know we have to make 
improvements, and you say it's an investment, but it's really 
an expense. Yes, in the short-term, no question it's an 
expense. But it is an investment. And like other financial 
investments, there is a return. I think it was a Moody's 
analyst, I forget his name, one of the chief economists for 
Moody's Analytics who has done some research and says that for 
every dollar we spend on infrastructure $1.44 comes back. I 
thought it was somewhat higher. But still, it shows that you 
get a return on that.
    So if we do, we get additional business activity, economic 
activity, we grow our economy, and we also then help to grow 
our way out of the deficit that we're all concerned about. So 
it's really critical that we make these investments in the 
infrastructure. Yes, it creates jobs for the industry I 
represent, no question about it. But also, as we grow the 
economy, it will help us keep businesses in finance, retail, 
and tourism. It just grows the economy. So the jobs are for the 
future of our region and our children and grandchildren. We 
need to grow. We need to make these investments.
    The other piece, which I'm sure I know was mentioned, 
investment in the rail infrastructure is certainly good for 
safety. Unfortunately, we've been good on the Northeast 
Corridor, but we've seen accidents around the world, actually, 
over the past few years, and environmental benefits. Certainly, 
rail transportation is more sound from an environmental 
standpoint than a car, airplane and others.
    So it's an integral part, rail transportation, of our total 
system, and we need to look at it as a whole, and we need to 
make these investments if we are going to grow the economy and 
have a quality of life.
    [The prepared statement of Mr. McNamara follows:]

    Prepared Statement of Joseph A. McNamara, Director, New Jersey 
    Laborers'--Employers' Cooperation and Education Trust (NJ LECET)
    Good morning. I want to thank you, the Committee, its Chairman, 
Senator Thune, and Senator Booker for putting the focus on such an 
important issue as commuter rail travel in this region. My name is 
Joseph McNamara I am Director of the New Jersey Laborers'--Employers' 
Cooperation and Education Trust (NJ LECET), a labor-management 
partnership of the Laborers' International Union of North America 
(LIUNA) and its signatory contractors. Our focus is primarily on issues 
of economic development which this very much is.
    You are hearing from numerous experts in fields such as 
transportation, business, government and more. In addition to my 
responsibilities with NJ LECET, I also serve on the New Jersey Economic 
Development Authority, the independent state agency that among other 
things finances small and mid-sized businesses and administers tax 
incentives to retain and grow jobs. I mention this because I have come 
to learn in my many years in economic development that a sound and 
efficient transportation infrastructure is a great incentive to retain 
and attract businesses.
    Speaking of experience, I should point out that I am here today 
representing LIUNA Vice President and Eastern Regional Manager Raymond 
M. Pocino who in addition to leading the 45,000 skilled workers of 
LIUNA in this region, is also a leader on issues regarding 
transportation having advised public officials for the last 40 years 
and served on important transportation-related boards including 
presently both the Port Authority of New York and New Jersey and the 
New Jersey Turnpike Authority. Ray apologizes for not being able to be 
here today but he thanks the Committee and, of course you, Senator 
Booker.
    I will concentrate my remarks on our need to plan effective and 
efficient transportation systems that build upon the strengths on the 
Northeast megalopolis and meet our future needs. Also, I will discuss 
the need to improve our crumbling infrastructure and use investment to 
not only meet our primary objective of moving people, but also meeting 
other important goals like the reduction of carbon emissions and 
increasing job opportunities.
Build upon our strengths
    I am sure you are familiar with last year's study of the Northeast 
Corridor and the American Economy by the Northeast Corridor Coalition. 
Eight states and the District of Columbia rely on an efficient and 
effective rail system to move 750,000 people each day. This is a region 
with an economy larger than France, home to 162 Fortune 500 companies, 
6 of the 8 Ivy League institutions, some of the world's best hospitals, 
50 million people, and of course, the Nation's busiest passenger rail 
line.
    The Northeast Corridor is a region with many steeples of excellence 
that not only rise above others globally, but interconnect within the 
corridor in ways that enhance our global competitiveness and encourage 
innovation. Interconnectedness contains the word connect, of course, 
and our rail lines have been linked to our economic vitality like 
nowhere else nationally. The Northeast Corridor is so important that 
just one day of unexpected loss of service could cost the Nation nearly 
$100 million in transportation impacts and productivity loss. We know 
the Northeast Corridor rail lines work because consumers show us that 
it is working for them. It is the only regional system of Amtrak to 
operate in the black and its network is in the proximity of 7 million 
jobs within 5 miles of an NEC Amtrak station. We mustn't lose sight of 
the need to build upon these strengths and our, for the United States, 
unique reliance of rail.
    For all the increases in ridership over the past decade or so, we 
must also consider that the NEC continues to deal with operational 
challenges due to the aging and obsolete infrastructure that has 
resulted from insufficient investment in maintaining our rail lines. We 
must also account for even more ridership in the future. The American 
Society of Civil Engineers in their Report Card on America's 
Infrastructure graded rail as a C+, and according to a report from 
researchers at MIT, there is $8 billion infrastructure maintenance 
backlog for NEC railways. Combine this with a projected 76 percent 
growth in NEC ridership, to 23 million annual riders by 2030, and one 
can see that the need for investment is tremendous.
    Our region's needs are multi-modal and rely on each part of our 
transportation system being run efficiently. Problems with our rail 
lines will put people on our roads or at our airports. That adds 
congestion and increase carbon emissions. How much of the latter? 
According to a Federal Transit Administration report, the average 
passenger car in the United States produces just under one pound (.96 
pound) of carbon dioxide per mile. A bus is .65 pounds per mile. Air 
travel is .53 pounds per mile and a commuter rail is just .35 pounds 
per mile. Investing in our railways doesn't just make sense to our 
economy and quality of life. It also effects our environment and the 
issues of climate change.
    As I mentioned, I represent the workers and contractors who build, 
repair and maintain our railways, so I have a good perspective of the 
importance upgrades to our system would mean to more than 40,000 
members in New Jersey and New York. But rather than hear it from me, 
consider the work of Mark Zandi, chief economist at Moody's Analytics, 
who found in 2011 that new Federal spending for infrastructure 
improvements would generate $1.44 of economic activity for each $1 
spent. In fact, the Congressional Budget Office found that 
infrastructure investments had one of the strongest economic impacts of 
all the policies included in the American Reinvestment and Recovery 
Act.
    We don't invest in rail infrastructure merely to create jobs, but 
the fact that we create good jobs while also enhancing service, 
improving safety, and increasing capacity should be seen for the sure-
thing investment that it is. I completely understand that our rail 
system competes for resources with systems all over the country. The 
difference is that we aren't offering a speculative dream. We can 
concretely show a system that is attractive and useful to the end user 
and a driver of our economy. We can also show that to sustain, improve, 
or grow the NEC network will take a commitment moving forward. While 
the NEC Region represents 17 percent of the U.S. population, its eight 
commuter railroads move 75 percent of the Nation's commuter rail 
passengers. It is critical that we act now to invest in Amtrak's 
Northeast Regional rail lines or surely face the consequences in the 
future. I thank you for your time.

    Senator Booker. Thank you very much, Mr. McNamara. I really 
appreciate that and all the testimony.
    I really want to dig in right now with some questions, if 
you all don't mind. But I'd like to start, Ms. Feinberg, with 
something you mentioned at the beginning of your testimony. It 
wasn't really echoed in the others, but I think it's very 
important that we flesh it out a little bit because I was very 
encouraged when the Department of Transportation released a 
much anticipated rulemaking and previously issued a lot of 
emergency orders about the safety of transporting crude on 
trains.
    Many people know that here in New Jersey we have a lot of 
refineries. We have crude coming from as far away as Canada to 
be treated in those refineries. Thankfully, we haven't had a 
derailment here. But as you and I both know, there have been 
some significant accidents in our nation, so safety is 
critical.
    We do know that here in this state we had a very difficult 
incident in 2012 in Paulsboro that involved a spill of 
dangerous toxic chemicals. So could you flesh this out for me a 
little bit more? The National Transportation Safety Board 
raised concerns in these derailments, whether crude oil or 
chemicals, and first responders need to know what's coming 
through, what's being transported through their communities in 
states like ours.
    I echoed these calls when I heard it, having been the Mayor 
of a city, making sure we have the equipment and the ability to 
respond to a disaster if it should happen, and really help 
those men and women who are out there on the front lines.
    So how does that rulemaking and emergency orders help to 
really address the issue of local first responders knowing 
what's coming through their communities?
    Ms. Feinberg. Thank you for the question. As we've been 
working on this rule for quite some time, and I've spent the 
better part of 2 years focused on this issue. We're focused on 
preventing the accident, mitigating it, but also assisting 
first responders with their response to the accident. That 
third part is critical. So there are a couple of moving pieces 
here.
    As of right now, we have an emergency order in place that 
requires the railroads to share information with the SIRCs, 
with the state leadership of first responders. The rule itself 
requires actual additional information to go from the railroads 
to the first responders, very specific information--routes, 
timing--basically as specific information as possible.
    That said, we've got some time between now and when the 
rule is implemented, and we're looking at even more and other 
additional steps that we can take to make sure that first 
responders have as much up-to-date information as possible. 
There is information about the product that is in the 
locomotive of the train. That doesn't necessarily make the most 
sense in terms of when you're actually dealing with an 
incident. So we're taking a close look, and we'd be happy to 
work with you and your staff also going forward to figure out 
what else we can do to assist first responders.
    Senator Booker. That's a critical link. I guess, then, is 
there something we should be considering in the passenger rail 
bill? There are safety provisions, for example, there. Is there 
anything that, as we're doing this reauthorization, that the 
Congress should be working on or focused on?
    Ms. Feinberg. Your staff and I know you've been interested 
in real-time communication to first responders of what the 
product is and when the product is traveling through 
communities. I think that's a wonderful first step. We're happy 
to work with you.
    I think if there's one thing that this rulemaking process 
has taught us, it's that rulemaking is not the way to change 
policy quickly. So to the extent that we can work with you as 
things are moving through the Congress, we would really welcome 
that opportunity.
    Senator Booker. I would love that. Nothing that pops to you 
right now of things that we should focus on?
    Ms. Feinberg. The real-time sharing of information is the 
best place to start.
    Senator Booker. Fantastic.
    Ms. Feinberg. Thank you.
    Senator Booker. So let's just shift to the whole panel 
because all of us, me in my opening remarks, every single one 
of you, covered the critical nature of the Northeast Corridor, 
how vital of an artery. Mr. McNamara, you even fleshed that 
out. It really does touch every area of life in this region, 
whether you realize it or not. The problem is that parts of 
this infrastructure are more than a century old.
    So what are some of the challenges? I just would love for 
you to highlight--anybody can take this on the panel that you 
want, because it's important for me that we flesh out really 
the crisis that we're in, the crisis state that we're in right 
now. So what are some of the challenges that we face if we 
don't make this a priority?
    You said people predicting disasters in the Gateway 
tunnels. But just in general in the Northeast Corridor, can you 
all paint a picture for me of if we fail to make the necessary 
infrastructure investments, what kind of impact is that going 
to have on our region?
    Anybody can pick that up.
    Mr. Coscia. Well, I'll start, because it's the nightmare 
that we think about at Amtrak on basically a daily basis.
    We've become the victim of our own success. You alluded to 
some of this in your opening comments. Passenger rail has 
become very popular. It is an extraordinary time to be 
associated with Amtrak because we have had the best five years 
in the last five. So in our 45-year history, the world has sort 
of reawakened to the notion that intercity passenger rail is a 
very effective, efficient mode of transportation, and on the 
Northeast Corridor we have a reasonable product to offer 
people.
    That increase in demand has resulted in a system that is 
very, very heavily used. I mean, if you are on the Northeast 
Corridor, it's not uncommon to walk around the train and 
realize that every seat is taken and that, in fact, if we had 
more trains, we'd be able to fill up more trains.
    The problem with that is that since we're running the 
system so hard, we're also not in a position to maintain the 
system in the kind of manner which we really should be, 
considering the fact that these assets have been in place, in 
some cases for over 100 years. So you have sort of a perfect 
storm.
    On the one hand, we're showing much, much better operating 
results, and it's translated into lower operating deficits and 
greater demand and an increased awareness of the railroad and 
other things. On the other hand, I mentioned in my testimony 
that all the critical work on the Hudson River tunnels, to take 
an example, all has to be accomplished in the 55-hour stretch 
during the weekend. So to those who live in New Jersey and 
can't take a train from Montclair to Manhattan on the weekend, 
the reason you can't is because we've taken one of the two 
tunnels out because we're doing repairs at the only time that 
we can.
    Those repairs are getting us to just the minimal level. The 
system is safe. I always assure people of that, and 
Administrator Feinberg would certainly agree to this. There are 
no dangers. The danger is that our inspections will reveal the 
fact that there are problems in the system and we have to shut 
down critical components of it, whether it's something 
absolutely critical, like the Hudson River tunnels, or other 
components of it, and we mentioned several in Maryland, and 
there are others in New England, and Mr. Redeker mentioned some 
of those.
    That level of disruption, even of a minor amount, is likely 
to cause significant ripple impacts on individuals and their 
quality of life, which we consider to be a very valuable 
consideration, but businesses will be touched by that almost 
immediately. I was the chairman of the Port Authority in the 
period after 9/11, and the PATH system was shut down for about 
a year-and-a-half period. I came to the Port Authority well 
after 9/11, but literally on my call sheet every day were CEOs 
of some of New York City's major companies essentially saying 
my people can't get to work every day, and the cost was 
literally in the hundreds of millions in terms of lost 
productivity that was incurred because that one component of 
the system was out.
    Shutting down the Northeast Corridor would wreak havoc on 
bridges and tunnels. The airline system wouldn't be able to 
cover it. I mentioned in my testimony that more people use our 
system between New York and Washington than all the other 
airlines combined. So if for some reason it no longer became an 
option, we would have enormous problems from an economic 
standpoint.
    So I think it's not possible to be hyperbolic on this 
subject because it is just so critical.
    Senator Booker. Right. And am I overstating the fact that 
unless we find a reliable funding mechanism to begin to account 
for this deficit that's been created and growing, inarguably 
growing, that that kind of crisis is inevitable?
    Mr. Coscia. We believe it is inevitable. In fact, we made a 
point of sharing with the world the very detailed analysis of 
the Hudson tunnels in the aftermath of Super Storm Sandy, and 
the damage, the chloride damage to the electrical systems and 
other fundamental parts of the system. We believe that we need 
to be building today in order to avoid there being a gap. I 
think Tom Wright's poll shows that the public doesn't really 
believe we're going to pull this off. And candidly, given our 
track record on the subject, I can't blame people for forming 
that judgment.
    But, yes, we have to create a funding source that allows us 
today to continue the work and to know it will continue for an 
extended period of time. The reason why reliability of funding 
is so critical is that, to anyone who has ever been involved in 
doing a major construction project of any type, to the extent 
you know you have enough money for Year 1 of the project, but 
you don't know if you have money for Year 2 of the project, it 
raises costs, it creates unpredictability, it creates schedule 
problems.
    We know we have a long-term problem----
    Senator Booker. Right, and we're going to get to the 
financing in a little bit. And again, everybody feel free to 
jump in. Mr. Wright, you can.
    But I just want to, again--look, I've never been one who 
cannot surrender to cynicism, and often the way to get people 
not to surrender to cynicism that we're not going to fix this 
problem is to motivate them by fear.
    So the report on the tunnels, when I first read that, it 
struck fear in me that they have a 20-year life span and that 
shutting down one of those tunnels, I know clearly what that 
would do. For the Northeast Corridor in general, that report 
was wonderfully illustrative and was covering a lot of 
coverage. But is that same situation going on in other 
components?
    Mr. Coscia. Yes, absolutely.
    Mr. Redeker. I'll give you three examples, just because 
I've lived them in my tenure in Connecticut, and I'm not sure 
that fear is enough.
    So, three incidents in Connecticut. The Norwalk Bridge, 
which failed on a Friday afternoon in a peak period, and did it 
again and shut down the entire Northeast Corridor because it's 
a single point of failure, just like Portal is. This is four 
tracks on one structure. When it opens, that's it. If it 
doesn't close, you don't have service anymore. That's a project 
that is long overdue in Connecticut because Connecticut doesn't 
get funding through the Amtrak sources, has not in history. But 
Connecticut at one point stopped the project because we didn't 
have enough money to complete it, so we stopped the planning. 
That was several administrations ago.
    This administration brought it forward, and thanks to Sandy 
funding, which is just a one-shot deal from my perspective, 
we're going to be able to finish that bridge. But think about 
constructing a bridge that's the only place where you can carry 
four tracks on one structure that has to be replaced in its 
current location. So it's a challenge to do it, but the fear 
about whether it's going to fail again didn't bring the 
funding.
    The second issue is that we had the derailment in 
Bridgeport. Now, here's a situation of serious lack of state-
of-good-repair funding for long enough that the entire system 
was substandard. Inspections were made, but this was not 
caught, and we had a derailment that shut the entire Northeast 
Corridor down. And costs, according to Northeast Corridor 
Commission estimates, $100 million a day, and that took several 
days to bring it back.
    And then we had a substation that failed because during the 
reconstruction of the substation there was no redundant power, 
so we had no Northeast Corridor again.
    Now, these are all north of New York, in Connecticut 
examples, but three incidents were not enough to bring 
attention to this issue at the Federal level yet.
    I must say this, at the State level we've committed 
substantial resources to this issue, and I think, just to give 
an example, our current capital plan, which is moving through 
our legislature, has a 40 percent increase in the highest 
capital investment ever in the Northeast Corridor. Seventy 
percent of the next 2 years of funding is dedicated to the 
Northeast Corridor, so $1.9 billion on top of our base capital 
plan for the Northeast Corridor.
    And in a third year plan which we're putting forward, fully 
30 percent of $100 billion plan is to go into our rail 
investments along the Northeast Corridor because of the 
importance economically. I want to support the arguments.
    So we need to combine the fear arguments with the outcome 
arguments. This is about our economy. It's about our future. 
And every dollar spent, and a 1.4 to 1 return, whatever it is, 
I just don't buy it. I think this is in the multiples. Our 
analysis shows investments in the Northeast Corridor are 6 to 8 
times the dollar returned per dollar spent. That's the 
compelling argument.
    We need to convince people about that, because that's what 
government should do. As you said, the fundamental principle of 
government is to build infrastructure, and the last time it was 
built was 118 years ago in Connecticut. It's time to rebuild it 
and bring it to standards.
    But I'll make one final point. States up and down the 
Corridor are tapped out. We're tapped out on the rail side, 
we're tapped out on the highway side. And in addition to 
already funding about a third of the Northeast Corridor 
projects today, the states have signed on across the Corridor 
with all of the users to pay yet more. But it's not enough. It 
will never be enough to bring the system to a state of good 
repair, never mind achieve the growth that we need 
economically.
    Senator Booker. Mr. Wright.
    Mr. Wright. Well, just to jump over to the other side of 
the river in New York, people are acutely aware of the 
deteriorated system that the subways had when I was growing up 
as a kid there, and others, trains derailed, caught fire, cars 
doors didn't open, and it was the massive investment in the 
city subway system in the 1970s and 1980s that has led to the 
resurgence of New York City today and the great economic growth 
that has happened there.
    But that system is also being starved for funding. Right 
now, the MTA is looking for a $32 billion, five-year capital 
plan, which is about half-funded and has about a $14 billion 
gap in it. We're talking about $6 billion a year that we're 
trying to get to kind of maintain and keep the city subway and 
bus systems running. That includes, of course, Long Island 
Railroad and Metro North.
    Now, just kind of taking a very broad brush at this, the 
CEO of the MTA, Tom Prendergast, will say that that's a 
trillion dollar asset, the MTA, that all the subways and the 
buses and commuter railroads in New York add up to about a 
trillion dollars. When you look at the rate of reinvestment 
that's necessary just to keep an asset going, that if tracks 
deteriorate, if train cars fall apart and other things and need 
to be replaced on, let's just say, a 30-year basis, then you 
need to be investing 3 percent on an annual basis just to keep 
your system running at the level that it currently is. On a 
trillion dollar asset, 3 percent would be $30 billion every 
single year, not for a five-year plan that's half-funded.
    So there's an enormous gap between the overall need. And 
again, depreciation is not just a financial concept. It is 
train wheels deteriorating, it is cables needing to be 
replaced, it is brake systems and signal systems and other 
things. So this is nuts and bolts hardware.
    Senator Booker. I never even thought about that. When I was 
mayor, I had to negotiate with the Arena about what the capital 
maintenance would be, and you're right, 2 or 3 percent----
    Mr. Wright. Is a bare minimum.
    Senator Booker.--is the floor.
    Mr. Wright. Absolutely.
    Senator Booker. The same thing about these landlords 
investing in their building or else there would be a decay. So 
we are dramatically high.
    Mr. Wright. We are a fraction of 1 percent, as opposed to 
that 2 or 3 percent level, and that's chronic across the 
country.
    The other thing I would say is that when I broke into this 
field 25 years ago, the United States had just had 50 years of 
post-World War II suburban growth, and there was an assumption 
I think in the field and everybody working that the future was 
going to look--that the 21st century would look largely the way 
the 20th century was, that cities would just barely hang on to 
their populations, that growth would continue moving further 
and further out from cities into the edges of the metropolitan 
regions.
    What we've seen is a wonderful reversal of that over the 
last 10, 15, 20 years. We all know the story. The Millennials 
are moving back into cities. The Boomers as they retire want to 
be somewhere active, they want to move into cities. People keep 
coming to our shores from around the world, and they want to 
move to cities.
    Senator Booker. Does that mean our estimates of capacity, 
and therefore wear on the system, are really low?
    Mr. Wright. I think that there's kind of baked into all of 
our assumptions much of that post-World War II suburban mindset 
and that we have to start thinking in a very different way 
about what the potential growth would be, because all of this, 
as Tony Coscia said, ``all of this growth has kind of happened 
on the edges without us expanding capacity.''
    We are going to need our housing production, we think, in 
this region to go from roughly 60,000 units a year to 90,000 
units a year. We're going to need to double the capacity in our 
major transit systems. This is just to keep up with the growth 
that we already anticipate. It's not to actually really support 
that growth and see how much better we could do. So we're not 
even talking at that level.
    But I think in terms of the fear factor, reminding people 
what our systems were like 40 or 50 years ago should be a 
powerful tonic, because I recall it from being a child, and I 
don't want to go back to those days, and nobody should.
    Mr. McNamara. To build on Mr. Wright's point, 
infrastructure transportation is important, obviously, for 
business to make decisions as to where to locate, but so also 
is the workforce and the availability of the work force. In New 
Jersey, we have a very qualified work force. But as Mr. Wright 
pointed out, the Millennials have a different lifestyle.
    I grew up in Newark with a bunch of my friends who I'm 
still friendly with. We all in the 1970s moved out. Our 
children, none of our children live in the suburbs. They all 
live in an urban area near a transit system. Why? Because it's 
a different lifestyle.
    We see from our industry standpoint, the construction and 
real estate industry, obviously we communicate about this stuff 
all the time, and there is a trend. We're not seeing office 
campuses built on 202 and others. If anything, we're looking at 
how to repurpose them so that they can go from being an office 
complex to a mixed use, something to regain the economic 
activity in the suburbs.
    But Hoboken, Newark obviously, Panasonic, Prudential, the 
Marriott Hotel--Mayor, you know them all--shows a trend of 
going back to the inner cities. I think, like New Jersey 
transit, since people are moving back, they do want to live in 
the cities. Businesses want to be located where their workforce 
is. They should look at public-private partnerships around 
train stations, perhaps New Jersey Transit, so that they can 
build residential, retail, office complexes, perhaps tying in 
with universities that tend to locate or have been located 
around the transit centers--Rutgers, Stevens Institute, Camden 
has.
    In Camden, we're starting to see some significant growth in 
Camden. A number of incentives have happened there that have 
created maybe $600 or $700 million in new capital investment 
there. One of the advantages is the rail system, the light rail 
system that comes down the river.
    So we need to look at not only increasing them for the 
workforce but seeing what economic opportunities they might 
generate for revenues for our transit systems. I don't know, 
Chairman, if Amtrak could support that kind, or if it's 
something they could have responsibility to do.
    Mr. Coscia. Not only do we support it, but I have the--I 
guess it's a mixed blessing of spending a lot of time with my 
counterparts in some of the places, Senator, that you 
mentioned, and they've been often visitors, and it's been very 
interesting to hear about how they've developed high-speed rail 
networks in other parts of the world and things that they've 
taken advantage of.
    One of the lessons we learned early on is that transit-
oriented element creates an enormously positive opportunity to 
create a value-capture mechanism to be able to bring value into 
the system and invest further in that. Along those lines, 
Amtrak as the legacy owner of many real estate assets 
throughout our footprints, we own interests in real estate that 
we think can be better deployed in a way that will allow us to 
activate sites that are relatively inactive, and at the same 
time would create revenue opportunities for the company that 
can then reinvest.
    We've begun a very aggressive program in that regard in 
places where we own significant real estate assets, like New 
York City, Philadelphia, Baltimore, Washington, D.C., where we 
have now very active programs of working with developers on 
creating high-density development opportunities around transit-
oriented stations.
    Senator Booker. So that's the multiplier effect. We see the 
fear, but the real hope and the vision for what we can create 
would be--and Newark's population is increasing for the first 
time in 60 years--is this incredible ecosystem that we could be 
creating that just has a multiplier effect of value, and this 
idea that we're number one, which is a cheer we hear as 
Americans all the time, but to get to that top number-one 
infrastructure really should be a goal because it does expand 
opportunity in ways we can't see.
    Mr. McNamara is right about the dollar, the 42 cents on 
every dollar. That's national infrastructure returns. Indeed, 
as Mr. Redeker said, the region that we're in, the Northeast 
Corridor, it is more like six times, which is just pretty 
incredible.
    I didn't want to gloss over the Gateway project in general, 
but it's not just money, Tony. I do want to get back to the 
Gateway, if we could. Just really quickly, it's not just money 
for Congress. Aren't there other things that Congress--and, Ms. 
Feinberg, you can answer this as well. Aren't there other 
things that Congress could do to be supporting getting to that 
first-class infrastructure that we all would want our country 
to have? Is that correct?
    Mr. Coscia. Yes, I think that absolutely is correct. There 
are a number of different things that would be helpful from the 
standpoint of giving Amtrak support and giving our stakeholders 
support for creating the kind of partnerships between Amtrak 
and its stakeholders that will allow us among ourselves to 
manage and better operate the railroad.
    The best example I can give you of that--and Mr. Redeker 
has worked with us very much on this initiative as well--is 
that we need to create a better way of looking at governance in 
the Northeast Corridor for how we manage large-scale 
infrastructure projects. The system will benefit by having a 
governance relationship between Amtrak and the various 
stakeholders that allows us to oversee and manage large-scale 
capital projects in a way that's much more efficient than we 
have historically done in the past. That's an area where we 
think Congress' support would be very helpful in terms of 
ratifying things.
    Senator Booker. I don't know if you read the book that 
talked about all the convoluted ways we raise the Bayonne 
Bridge and the difficulties with the project. Do you know what 
I'm referring to?
    Mr. Coscia. Yes, yes. I do.
    Senator Booker. So Congress can play a role in helping to 
streamline all these cross-authorities that are going on. Is 
that right?
    Mr. Coscia. Yes, and I think that PRIIA offers a great 
platform to do that, because by adopting what PRIIA called for 
in terms of creating business lines within Amtrak that allow us 
to look at--we basically think Amtrak is in one business only, 
which is intercity passenger rail. We connect people between 
cities. And for all the reasons that Tom and others mentioned, 
this is an incredible growth opportunity, not just for now but 
for decades to come.
    But in addition to that, we run state-supported services, 
which we have broken into a different business, and we also run 
long distance rail, which is a third business. And then finally 
we've created a fourth business, which is our asset management 
business, because we own legacy assets that can be deployed. We 
think by having PRIIA in its reauthorization further enhance 
those four separate businesses as operating units within 
Amtrak, it creates a better platform for us to be more 
effective partners to our states, our long distance partners 
and others, and other private parties as we look to monetize 
our asset base.
    So in part, we think that PRIIA really did sort of open the 
door in an incredibly comprehensive way toward creating a new 
type of passenger rail system in the United States. We now have 
to act on that.
    I mentioned something about long distance rail because 
there is an enormous community that's served by long distance 
rail. There are disabled and elderly in towns and in places 
where the only thing that happens in those towns is an Amtrak 
train runs through them. Now, I will tell you that from a 
policy standpoint, we will continue to run those trains, and we 
think it's important to continue to run those trains. But I 
assure you, Senator, that neither I nor any financial manager 
in the world will ever be able to turn those lines into things 
that run black ink. So that's obviously an area where we need 
that support.
    Senator Booker. Well, I believe in you, first of all. If 
anybody could do it, you could.
    Mr. Coscia. Thank you.
    Senator Booker. But what you're talking about, and 
especially the four business units you outlined, that's a great 
area for a bipartisan coalition. I know our staff is already 
talking, but I want to pounce on those areas. I get a lot of 
cooperation when I start talking about empowering folks, 
helping to streamline business outlooks and authority.
    But before I go on to the next, Ms. Feinberg, do you have 
anything to add to that?
    Ms. Feinberg. Well, I completely agree with Mr. Coscia. I 
mean, I think one of the most important things on the Gateway 
project is also for all the stakeholders to come to the table. 
So you've got Congress, you've got Amtrak, but New York and New 
Jersey as well, to come to the table and move as fast as 
possible.
    I mean, one of the things that I think everyone remarked on 
but that always strikes me when we're trying to focus on the 
importance of moving quickly is how much more expensive it is 
the longer we wait, right? So even with the negotiations that 
go on on the Hill between Republicans and Democrats about how 
to pay for things, the negotiations that happen between the FRA 
and OMB and other elements of the Administration, the thing 
that everyone can agree on is how much more this will cost us 
if we wait any longer, or if we wait, God forbid, for a tunnel 
to be out of service, or if we've got a bridge that just no 
longer works and we actually have to shut the place down.
    Mr. Redeker. There are a couple of points that I think 
we've made in the Commission policy document that I think 
really support this question of what can Congress do on the 
policy side, not just the funding side.
    One is that we've adopted, not just the policy on 
allocating cost but rather on performance, and it's both the 
operating performance, so outcomes on the system performance 
once we spend money, but it's also about the production of 
projects and how they get managed and how transparent they are 
and how we report on them from a schedule and a budget point of 
view. And that's not just Amtrak. It's every owner who has that 
responsibility.
    I think those perspectives, and one more that's in the 
policy document, and I think Mr. Coscia referred to it in his 
remarks, this question of harmonizing Federal programs. One of 
the dilemmas that we face which costs time and costs money is 
different rules and regulations and procedures and processes in 
environmental or funding or whatever it may be, that we are 
now, maybe for the first time as we focus on the entire 
Corridor, going to be mixing.
    So we're going to be needing to take Federal transit 
dollars and Federal highway dollars and Federal railroad 
dollars and put them all into something, plus state dollars, 
and say let's make it all work. From a state that's tried to do 
that, it's not easy. So I think we've got a commitment among 
Commission members, particularly our USDOT partners, to begin 
that process, and we're thrilled about that because that is a 
piece of how do you expedite this.
    I also think there's a private side of this which says how 
can we actually figure out a way to just do this like a company 
would that's a private sector company, not a Federal Government 
or state government project, and learn from that and break 
through the rules and regulations and create new ones that 
simplify and expedite projects.
    I'd say this, that to get to that in Connecticut, we're 
proposing programs that are fully state funded just to avoid 
the regulations and to create our own streamlined processes 
because we haven't been able to break through that. It's not to 
say we can't, but in our book self-sufficiency may be the only 
way to do this to break through some of the restrictions and 
burdens we actually live with every day.
    Senator Booker. I've got one more question, and then we're 
going to have to wind down. I really wanted to get more into 
funding mechanisms because I think that's the trick right now 
for Congress is to figure out the funding mechanisms. I just 
want to say a pet peeve of mine which you mentioned, Tony, that 
I think is worth highlighting, that just reinvesting in the 
Northeast Corridor's profit in the Northeast Corridor would 
create even more resources, but we're really being drained as a 
region. I know it sounds self-serving for a Senator from New 
Jersey, but you would agree with my take.
    Mr. Coscia. I think it's a false choice to say that we have 
two options, either invest in the Northeast Corridor, which we 
should because we're essentially burning the beams in our house 
for the fireplace, and eventually there will be no more beams 
and no more house. So what we are doing makes no sense 
whatsoever. But we're doing it because the other option right 
now would be abandoning large segments of the country that have 
no rail service.
    So we're sort of asking for people to be honest with 
themselves about what kind of a policy judgment are we making 
as a nation about mobility options for people and not burying 
our head in the sand and saying, well, OK, right now Amtrak is 
doing pretty well and we're making money on the Northeast 
Corridor, so let's let them pay the bills so we don't really 
have to. It's just not responsible.
    Senator Booker. So that's the last question, and anybody or 
everybody can take it, as my staff is starting to jump up and 
down and gesticulate. But what we're digging into is trying to 
figure out the best ways in the bill I introduced about trying 
to create a stable, long-term funding mechanism that could be 
relied upon so we can plan out getting back to a Class A 
Northeast Corridor rail service. So if anybody wants to 
highlight a message you would want to send to Congress about 
the ability to set up a stable funding mechanism, the urgency 
that exists, would be helpful.
    Ms. Feinberg. I think I can jump in. The stable, dedicated 
funding so that folks know that they can plan more than 1 year 
in advance, more than 6 months in advance, more than 2 years in 
advance, is just incredibly important. As you've said and as 
others have said, there is some ability for state DOT 
secretaries to do that planning for highways. Those in the 
aviation community usually feel like they can plan a little bit 
in advance. We just don't have that in rail, and it is 
critical, and it is a huge hole in operating service.
    Senator Booker. The interesting thing is we're looking at 
the Federal Government, but do the states themselves at the 
table have to be making more of a commitment as well?
    Ms. Feinberg. Well, you know, it's almost a chicken or egg. 
It's an endless cycle that doesn't work well, because we can't 
ask Mr. Redeker to plan 10 years in advance and to plan massive 
projects that are going to be game-changers for Connecticut 
when he's just hoping that the Congress is going to be able to 
agree on something that gets him part of the way down the road. 
So I can say I wish states would plan more, but I absolutely 
understand that they're looking at us saying how in the world 
can we plan if the Highway Trust Fund is going to run out in 
May and no one has done anything yet to solve that problem? So 
I understand why we're stuck where we are.
    Senator Booker. In many ways it has to be Congress first, 
in other words.
    Mr. Redeker. Well, I think the states have been first. 
Let's make that clear. The cost allocation policy is really a 
reflection of old users, mostly states, agreeing, up and down 
the Corridor, from D.C. to Boston, to contribute more, on top 
of what I think is misunderstood, an already substantial state 
contribution. That foot forward and that lead was really 
something that said please follow our lead, Congress. It really 
was a plea for Federal funding because there is substantially 
more dollars put on the table, albeit with expectations for 
performance, for projects, and for service. But states have 
already recognized the need to put more in and have put that 
absolute first step forward. We've made that commitment.
    So I think it's time for the next commitment, and I think 
the incentive, if you will, that if Federal funding were made 
available and there were matching funds to it, some states may 
not be able to stretch that far. But a Federal dollar with 
state match will still stretch further, and there will be 
states that will step up, yet again, to contribute more. So it 
really does take this momentum we've started and compound it, 
if we could find a predictable Federal source even with 
matching money.
    Senator Booker. Mr. Wright, the final word.
    Mr. Wright. Well, I would just reiterate. Since Jim works 
for a Governor who has proposed a very ambitious $100 billion 
investment for his state to make up for two generations of lack 
of investment, and Tony, of course, both at the Port Authority 
and at Amtrak, has done extraordinary work turning these things 
around, I'll kind of flip it to say what the states have done 
so far has been with very low expectations from Congress, and 
that's both the bad news and the good news, because if Congress 
and Washington were to suddenly start to step up, I think we 
would see more of these partners come forward.
    The Tiger grants were a great example of what you can see 
happen locally when the funding is put on the table.
    To Ms. Feinberg's comment, there's a kind of urban legend 
story in New York City about the seven subway extension, which 
was then a back-of-the-envelope analysis early in the process. 
The city wanted to extend the subway out to the West Side and 
was trying to determine whether or not to go for Federal 
funding. The kind of internal analysis they did was an 
expectation that they could probably count on a third of it 
being funded by the Federal Government if they went that route, 
but it would take so long that it would cost twice as much to 
deliver. So that was why the city essentially decided to forego 
any kind of state or Federal involvement to do that project. 
That's how bad things are right now.
    So institutions matter, and security in the process 
matters. But again, I'll kind of close with trying to be 
uplifting the way you are, Senator. It's gotten to such a low 
point, we can only do better than that. We really could. If 
Washington were to step up and pleasantly surprise the states 
by putting new revenues on the table, by engaging, as Tony 
said, that PRIIA opens the door for new institutional 
alignments, and institutions matter, and starting to allow us 
to streamline this, we could really start to unlock enormous 
amounts of investment and potential in the system, and we just 
haven't yet. So that's also a good news story.
    Senator Booker. Well, I have a lot of hope for PRIIA. I 
think that, number one, we're going to get more investment. The 
nature and the degree is to be seen. I think there will be some 
streamlining. I think we'll make some gains, even more gains, 
and your work is great on safety and security.
    But I think this is really the test moment for us. There's 
a wonderful speech that's worth reading again by Daniel Webster 
at Breed's Hill, which most of us know as Bunker Hill, where he 
talks about--if I remember it correctly, he says that we can 
gather no laurels in a war for independence. Greater heroes 
than us have done that. In other words, the generation before 
has done great things. But he does this wonderful piece at the 
end of his speech about every generation having to do something 
for which they will be remembered. That's the call of every 
generation. And he calls upon his generation at the time to be 
the generation of improvement.
    It seems that we have this amazing inheritance. Really, 
what we got from that greatest generation was this amazing 
inheritance where we were number one in so many areas. We led 
the globe on indices that mattered, from social mobility to the 
percentage of our population graduating from college to 
infrastructure. Unfortunately, when I look at indices of 
competitiveness, and there are global indices of 
competitiveness--the World Economic Forum keeps incredible 
indices on global competitiveness and looks at countries and 
ranks them against one another, OECD countries, ranks them--
what frustrates me as a new Senator is that our country has 
slipped from our greatest generation being number one across 
these indices to now just challenging issues, ones that this 
hearing is nothing about, but to be number one in percentage of 
your population graduating from college in a global knowledge-
based economy is important. We used to be number one. Now we're 
about number 12. Other countries driving down the costs of 
their college education, Germany nearly free, Canada 5 percent 
of median earnings, England 7--we're 52 percent.
    All these areas that make an economy competitive, we're 
slipping, and we've taken that number one ranking. This is the 
one that most perplexes me, because any fiscal conservative 
that uses a balance sheet analysis, what does a company do to 
be great, I would say this, if we ran this like America, Inc., 
it would be different.
    What does a company do? It wants to invest in its physical 
plant. It wants to stay ahead of the competition and invest in 
its workers. Well, I already covered the education investment. 
Staying ahead of the competition is research and development. 
If you look at our percentage of GDP we're spending, or the 
percentage of our Federal budget we're spending on R&D, it's 
going down, and then the physical plant as well.
    So if I just use pure capitalist, fiscal balance sheet 
analysis, we are doing everything that's counter-intuitive to 
our own long-term strength and benefit, and the only thing that 
I can say that's causing this is not careful analysis, which 
you all do. It's not a lack of resources. We are the wealthiest 
country on the globe. It's probably best termed, in the 
official graduate school political science terminology, it's 
the ``mishegoss'' in Congress.
    So the obligation for us is to try to figure out and clear 
up that ``mishegoss'' and get us back to a nation that is 
focused on growth, expanding opportunity, and being the light 
unto other globes, other nations want to follow.
    I'll end with that.
    I had Japanese leaders come see me in my office and brag to 
me about their passenger rail service. I'm sorry, but I am one 
of those, at times, small-ego patriots that just didn't like 
that. They left my office, and I was very angry that we should 
be behind the Japanese, which had a country that was quite 
literally and tragically leveled in the 1940s. We were well 
ahead of them. For them to catch us and pass us in a matter of 
decades is just unacceptable to me.
    So I want to thank you all for coming. I want to thank 
Senator Sweeney. He could not attend but, God bless him, he 
wrote out some great testimony that I'm going to include in the 
record, and I'm very proud to do that and very grateful to the 
Senator.
    [The information referred to follows:]

Testimony of Senate President Stephen Sweeney, U.S. Senate Subcommittee 
                       on Surface Transportation
    I would like to thank Senator Booker for bringing the U.S. Senate 
Surface Transportation Subcommittee to New Jersey for a field hearing 
focused on the critical role that passenger rail service, and 
specifically the Northeast Corridor, plays in the region's economy 
today and how further investment is vital to future job and economic 
growth.
    New Jersey is the crossroads of the Northeast Corridor--Amtrak's 
Boston-to-Washington rail line that connects a market of 60 million 
people, including the Nation's most important financial, political and 
academic centers.
    But the Northeast Corridor isn't just Amtrak: Of the 750,000 rail 
riders in eight states who travel on Northeast Corridor tracks daily, 
228,000 of them--almost one third--are New Jersey Transit passengers. 
In fact, five out of six NJ Transit passengers travel some part of the 
Northeast Corridor each day.
    New Jersey is part of an interconnected regional economy that we 
share not only with New York, the Nation's largest city, but also 
Philadelphia, the fifth-largest. We rely on the busiest and most 
advanced mass transit network in the country. Any long-term disruption 
or cutback of service on the Northeast Corridor would be catastrophic 
to the economy of New Jersey, the region and the Nation's economy, and 
unfortunately, that threat is real, and it is here.
    The two 105-year-old rail tunnels under the Hudson River that carry 
Amtrak and New Jersey Transit trains between New Jersey and New York 
City were badly damaged by Sandy. In fact, Amtrak's Northeast Corridor, 
which is four and five tracks wide elsewhere, has to squeeze through a 
single track bottleneck in each direction when it hits the Hudson 
River.
    These single-track tunnels operate at full capacity during the 
morning and afternoon rush, with three Amtrak and 21 NJ Transit trains 
going in one tunnel and out the other every hour. If one of those 
tunnels has to be closed for 18 months for repairs, we go from 24 
trains an hour to six trains an hour.
    Seventy-five thousand displaced rail commuters would flood the 
already crowded PATH system, exacerbate overcrowding at the Port 
Authority Bus Terminal, and create monstrous daily traffic jams at the 
George Washington Bridge and the Lincoln and Holland tunnels,
    It would be an economic disaster and a commuter nightmare. That is 
why I have been saying for months that no project is more critical to 
New Jersey's economy than the construction of a new rail tunnel.
    Fortunately, encouraged by the late Senator Frank Lautenberg, whose 
seat Senator Booker now holds, Amtrak began work on plans for a new 
Gateway rail tunnel almost immediately after the Access to the Region's 
Core (ARC) tunnel project was cancelled by Governor Christie in 2010. 
We are grateful that Amtrak is already well underway with construction 
of the $185 million Hudson Yards concrete casement to preserve a right-
of-way for the Gateway tunnel into Penn Station.
    I am urging your committee to do everything possible to make sure 
that Congress provides funding for Amtrak to proceed immediately with 
the Gateway rail tunnel, and we will do everything we can on our end to 
make sure that the regional funding share is there.
    Because the new Gateway rail tunnel would connect New Jersey and 
New York City, we have recommended that the Port Authority set aside 
the first $3 billion from its planned sale of up to $8 billion in non-
transportation-related assets for the new tunnel, along with funding 
for a new Port Authority Bus Terminal.
    The $7.5 million Gateway tunnel is just the first half of a 
comprehensive plan that will expand rail passenger capacity for both 
New Jersey Transit and Amtrak, and jump-start further economic growth 
in our region
    It includes reconstruction of the current two-track Portal Bridge, 
a swing bridge over the Hackensack River that carries 450 trains a day 
and sometimes gets stuck when it opens for barge traffic, with a taller 
replacement bridge, and the construction of an additional two-track 
Portal South Bridge to accommodate increased trains.
    It includes expansion of the Northeast Corridor Main Line between 
Newark and Secaucus from two tracks to four tracks to handle more 
trains, enabling NJ Transit to provide ``one-seat'' rides during rush 
hour on the Bergen, Pascack Valley, Main, Raritan Valley, Montclair-
Boonton and North Jersey Coast Lines.
    And it includes construction of a new Penn Station South adjacent 
to the existing Penn Station to accommodate the projected doubling of 
rail ridership by 2040.
    The economic benefits to these projects would be enormous. The new 
trans-Hudson investment is projected to generate $10 billion in new 
Gross Regional Product annually, $4 billion in new Real Personal Income 
annually, 44,000 new permanent jobs and 6,000 construction jobs during 
the course of the project. Proximity to rail lines with access to New 
York City service raises home values by up to $34,000. And the 
millennials who will soon make up a majority of our workforce prefer to 
work in transit-friendly cities and towns. We need to capitalize on 
that by putting more money, not less, into our passenger rail network.
    My colleagues and I stand ready to partner with you, our regional 
congressional delegation and Amtrak to do everything we can to advance 
the Gateway rail tunnel project and to expand the capacity and quality 
of passenger rail service in the region.

    Senator Booker. But I've worked with this panel. I'm very 
excited about our new relationship. You all have been 
incredibly helpful to me in the past, and this is a very 
valuable morning and investment of your time. So, thank you 
very much.
    And thank you, everybody, for attending.
    [Applause.]
    [Whereupon, at 11:13 a.m., the hearing was adjourned.]

                            A P P E N D I X

            Prepared Statement of Hon. Richard Blumenthal, 
                     U.S. Senator from Connecticut
    I thank the Committee for putting together an important hearing on 
passenger rail and the Northeast Corridor.
    Recent, tragic events on Amtrak demonstrate that passenger rail 
service is a critical link between people, jobs and opportunities, and 
we need to give it the same attention and priority that we give our 
roads, transit systems, aviation sector, and other transportation 
modes. In many places, passenger rail is just as significant--if not 
more significant--than these other forms of transportation. Along the 
Northeast Corridor, for example, passenger rail serves a greater 
percentage of riders than planes.
    Passenger rail provides a host of benefits. It reduces congestion 
and takes people off our roads. It connects major metropolitan areas as 
well as small communities. It provides an economic lifeline that we 
can't live without. And along the busy Northeast Corridor, passenger 
rail service actually makes money--that's how popular and critical the 
service is.
    In the Northeastern United States, loss of rail service could cost 
the economy nearly $100 million per day. The recent days-long loss of 
Amtrak service between New York and Philadelphia will have dramatic 
economic consequences. Irresponsible actions that shortchange 
investments in Amtrak or contemplate reductions in service are 
misguided and undercut our regional and national economy.
    I am committed to ensuring that we prioritize rail. My constituents 
depend on rail. New Haven, for example, is one of the ten busiest rail 
stations on the Amtrak network. Our focus should be on enhancing and 
expanding service--not minimizing it. And for that, we need to invest 
now.
    On the Northeast Corridor, Amtrak and the passenger rail network 
have unmet needs that some estimate near $50 billion. That isn't for 
pie-in-the-sky dreams of 250-mph bullet trains, but just basic 
maintenance and rebuilding, like five major bridges in Connecticut in 
dramatic need of repair and replacement. And there are aging bridges 
and tunnels elsewhere on the line, bridges that belong in a museum--not 
as part of a country's twenty-first century rail network.
    I'm looking at ways to bolster investments and lay the foundation 
for these improvements so we can truly have high-speed rail throughout 
our region.
    One key way to do this is the FRA's Railroad Rehabilitation and 
Improvement Financing Program (RRIF). The program is authorized to loan 
up to $35 billion and fund up to 100 percent of a rail project's costs. 
These loans also come with low interest rates and with no cost to 
Federal taxpayers. RRIF could be especially helpful for major safety 
projects, like helping railroads install life-saving Positive Train 
Control (PTC) and rebuilding aging bridges and structures on the 
Northeast Corridor. But the RRIF program leaves most of the available 
funding on the table. FRA has issued loans totaling just a few billion 
dollars--a tiny fraction of what FRA is authorized to lend. This is a 
lost opportunity and why I look forward to working with the Committee 
to reform this program so it unleashes greater resources on Connecticut 
and the Northeast.
    Again, I thank the Committee for having this hearing and laying an 
important foundation for reauthorization of passenger rail legislation 
that benefits the Northeast Corridor and our country overall.

                                  <all>
</pre></body></html>
